<html>
<title> - HEARING ON THE USE OF FIRE AS A MANAGEMENT TOOL AND ITS RISKS AND BENEFITS FOR FOREST HEALTH AND AIR QUALITY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   HEARING ON THE USE OF FIRE AS A MANAGEMENT TOOL AND ITS RISKS AND 
               BENEFITS FOR FOREST HEALTH AND AIR QUALITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 30, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-45

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-511 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 30, 1997..................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Additional material submitted for the record by..........    85
        Additional material submitted for the record by..........   140
        Explanation of photographs...............................   140
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Vento, Hon. Bruce F., a Representative in Congress from the 
      State of Minnesota.........................................     2

Statement of Witnesses:
    Babbitt, Hon. Bruce, Secretary, U.S. Department of the 
      Interior...................................................     5
        Prepared statement of....................................    63
    Browner, Hon. Carol M., Administrator, U.S. Environmental 
      Protection Agency..........................................     7
        Prepared statement of....................................    74
    Dennison, William, Plumas County Supervisor, Board of 
      Supervisors, Quincy, California............................    45
        Prepared statement of....................................   107
    Glickman, Hon. Dan, Secretary, U.S. Department of Agriculture     9
        Prepared statement of....................................    60
    Mutch, Robert, Missoula, Montana.............................    47
        Prepared statement of....................................   116
    Pearson, Robert L., Radian International LLC, Denver, 
      Colorado...................................................    49
        Prepared statement of....................................   129
    Peterson, Earl, Florida State Forester, Chairman, National 
      Association of State Foresters Fire Committee, Tallahassee, 
      Florida....................................................    43

Additional material supplied:
    Davis, Stanley B., prepared statement of.....................    95
    National Association of State Foresters, Washington, DC, 
      prepared statement of......................................    99



   HEARING ON THE USE OF FIRE AS A MANAGEMENT TOOL AND ITS RISKS AND 
               BENEFITS FOR FOREST HEALTH AND AIR QUALITY

                              ----------                              


                      TUESDAY, SEPTEMBER 30, 1997

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room 1324, Longworth House Office Building, Hon. Helen 
Chenoweth [acting chairwoman of the committee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Committee on Resources will come to 
order.
    I just want to say that these are the times that try men's 
souls toward the end of the year when the work on the House 
floor, as you remember, will scare the ducks off the pond, and 
so, therefore, the committees are scarcely filled and a lot of 
work is going on concurrently. With this hearing and actual 
floor work, we will try to move as quickly as we possibly can 
through this very interesting hearing.
    And, as you know, the committee is meeting today to hear 
testimony on the use of fire as a management tool and its risks 
and benefits for forest health and air quality. Under rule 4(g) 
of the committee rules, any oral opening statements at the 
hearings are limited to the Chairman and the Ranking Minority 
Member, and this will allow us to hear from our witnesses 
sooner and help Members keep their schedules as well as help 
the witnesses keep their schedules. Therefore, if other Members 
do have statements, they can be included in the hearing record 
under unanimous consent.
    We're very, very pleased to have with us Secretary 
Glickman, the Honorable Carol Browner, and Secretary Babbitt.
    Today the Committee on Resources convenes for an oversight 
hearing on the uses of fire as a management tool and impacts of 
the Environmental Protection Agency's national ambient air 
quality standards on that use.
    It is clear today that our past success in suppressing 
forest fires has led to unintended consequences, and I just 
want to say, it's my personal--very strong personal--feeling, 
as chairman of the Forests and Forest Health Subcommittee, that 
what we're dealing with today in our forests is not a result of 
any one administrative policy. These problems began in probably 
the 1960's; they have been continuing through various 
administrations to the point that we are at a critical mass 
now. And, so as we proceed through this hearing, I just wanted 
to make sure that that was on the record--that we need to work 
together to solve the problems not just in the forests, but 
also in the air.
    Despite the continued improvement in our fire-fighting 
capabilities and the seemingly endless budgets for fighting 
fire, the acreage burned and the intensity of the fires has 
increased dramatically in recent years. Scientists tell us that 
this is due in part to the increase growth of shade-tolerant 
trees that have grown up in the understory of otherwise fire-
tolerant forests. And then these smaller trees act as fire 
ladders to fuel intense wildfires that cannot be easily 
suppressed and cause a tremendous amount of damage to forest 
resources. Clearly, we need to take action to reduce the fires' 
danger in our forests.
    The Community Protection and Hazardous Fuels Reduction Act 
of 1997, which I introduced earlier this month, is designed to 
address this need in the highest priority areas: the wildland-
urban interface. My bill provides the Forest Service a much-
needed new tool for dealing with this critical concern. 
Importantly, a problem that has taken decades to develop can 
only be resolved by using all the tools in the agency's tool 
kit.
    Secretary Babbitt has taken the lead on promoting the 
increased used of prescribed fire on Federal lands; and I 
understand the Federal land management agencies intend to 
increase the acreage they burn each year using prescribed fire 
by as much as five-times.
    And at the same time, our Administrator Browner, just a few 
months ago, issued new stricter national ambient air quality 
standards in the proposed rule to reduce regional haze which 
appear to conflict with the land management agencies' plan to 
increase burning. As I understand it, these rules will allow 
for smoke from natural wildfire, but will restrict the land 
manager's ability to use prescribed fire.
    At a time when the risk of catastrophic fire is so severe, 
I question our ability to increase burning with out first 
reducing the heavy fuels in our over-crowded forests. Forest 
Service Chief Mike Dombeck said 40 million acres of national 
forests are at high risk of catastrophic fire and we need to 
act responsibly to improve the conditions of these lands and 
ensure that our fire management policies do not make the 
situation even worse. But it remains to be seen whether this is 
possible under the constraints of the new and proposed air 
quality standards.
    The Chair now recognizes Mr. Vento for an opening 
statement.

STATEMENT OF HON. BRUCE F. VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Thank you, Madam Chair. I ask unanimous consent 
that all Members have opportunity to place their opening 
statements in the record. I put Mr. Miller's statement in the 
record, without objection, Madam?
    Mrs. Chenoweth. Without objection so ordered.
    [The statement of Mr. Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    The subjects of forest fire management and clean air are of 
significant concern to many citizens in my home State of 
California. the fact that we have two cabinet Secretaries and 
the EPA Administrator here today is ample evidence of the 
priority given to these matters.
    Frankly, this administration inherited a huge mess in the 
western forests. For years, the professional foresters assured 
us that clearcutting the biggest and most mature trees was the 
best way to manage public forests. While those polices may have 
served the short-term interests of the commercial loggers, they 
have fundamentally changed the nature of our forests. Instead 
of fire resistant old-growth trees, we now have too many 
forests dominated by small diameter, densely packed trees.
    Compounding the problem was the ``Smokey the Bear'' policy 
of putting out every forest fire. Fire is part of the natural 
system in western forests and the result of decades of fire 
exclusion, ironically, is that we now face a situation where so 
much fuel has built up that wildfires tend to be larger and 
more severe.
    Some see the threat of forest fires as an excuse to turn 
back the clock and let the loggers loose on forests. But the 
administration is on the right track in increasing the use of 
preventative treatments such as prescribed burning. We have 
spent over a billion dollars in just one year fighting fires 
and fuels treatment prevention efforts are much more cost-
effective.
    Instead of building new roads and subsidizing timber sales 
in controversial roadless areas, we ought to be using these 
taxpayer dollars to make a greater investment in fuels 
reductions, especially in the roaded areas near communities.
    When it comes to the interplay of the new EPA Clean Air 
standards and prescribed burning, it appears to me that we can 
and should have both. Without controlled burning, the 
alternative is greater carbon emissions from high intensity 
wildfires.
    I look forward to today's testimony and welcome our 
distinguished panel of witnesses to the Committee.

    Mr. Vento. Madam Chair, I appreciate you calling the 
hearing, and especially from hearing from those Secretaries: my 
good friend, Dan Glickman, a classmate, Secretary of 
Agriculture; Carol Browner, and of course, Secretary Babbitt. I 
very much appreciate you being here at this hearing.
    I think that the chairwoman has indicated her legislation 
which she has advanced, and there are other proposals advanced 
along these lines that seem to have as a goal to increase or 
justify increased harvest of trees in the National public 
domain and in the national forests. I think we can get very 
concerned about that because this type of activity may or may 
not be related to some of the dilemmas that we face in terms of 
managing forests.
    I think historically with the revisiting and revamping of 
forest management practices and harvest practices it's become 
clear that the reduced revenues have impinged or affected the 
ability of the land managers to have some of the revenue that 
they need to manage these lands. Under some of the Knudsen-
Vandenberg and other laws that exist, we face real challenges 
with regards to that today. As a matter of fact, the amount of 
prescribed burning that occurs is very much limited by the 
dollars available to do that. I think, between BLM and the 
Forest Service, it is something less than $50 million is 
principally aimed at that type of activity.
    At the same time, of course, we're adding hundreds of 
millions of dollars to other activities which are geared to 
assist in terms of timber harvest. I think that some revisiting 
of that; if the real goal here is in terms of trying to reduce 
fire, than we ought to address it through that. Plus, I think, 
a goodly amount of money, nearly a billion a year at least in 
some of the bad years, has been used in terms of forest 
fighting fire. And again, if we can get ahead of the curve 
here, we can shift some of those dollars, if we have some good 
years, some years that aren't so dry, to, in fact, try and deal 
with avoiding the sort of catastrophic fires that all of us 
recognize as being a serious problem.
    But this isn't the problem, really, of these land managers 
that are before us today, Madam Chair. It's a problem that's 
been going on because of 50 years of policy that was attempted 
to try and control these fires; in many respects doing so. When 
they failed then, the fires end up in being very catastrophic. 
So, it's really been based on a new understanding and a 
recognition of knowledge.
    What we're supposed to do in this particular forum, 
incidently, is to translate new information, new knowledge into 
public policy. That's the ideal that we all have.
    But we're faced with certain circumstances, given the 
history and given the practices that have occurred in the past, 
that have compounded many of these issues that we have today. 
And, obviously one of the issues that have come up--and I guess 
some have relished the fact that there could be, in fact, a 
problem between air quality goals and trying to manage 
prescribed burns in the forest. Clearly, I think most of us 
recognize an inability to, in fact, deal with some of the type 
of catastrophic fires that are reminiscent--like the 
Yellowstone fire. We've spent, you know, hundreds of millions 
of dollars, or something of that nature, and still have not 
been able to have any positive effect in terms of the outcome.
    And I think the gentlewoman has mentioned the urban 
interface, and of course, this is something where we really 
need to have if we really want to save money in terms of fire-
fighting. We need a lot more cooperation in terms of how the 
counties and States regulate construction of sites that are 
within our forests and within the public domain. And it's clear 
that we can't rewrite history in terms of people making tens or 
hundreds of thousands of dollar investments in these urban-
forest interface areas, but we can ask States to begin to 
address this. In fact, the Forest Service and BLM itself, under 
some policies have actually promoted that. There are policies 
that go back with regards to leasing, where they have actually 
promoted some of these long-term leases which in fact compound 
the effort to manage the forest and run the risk of safety and 
health problems.
    So we have to deal with the safety and health issue today, 
but clearly, we need to expect the States and counties, as our 
partners, to work collaboratively with us to avoid further 
conflicts of this nature. It gets into urban sprawl; it gets 
into all sorts of questions--policy questions, quite frankly--
that I think, that for the most part are not easy answers.
    But I understand that the leadership being provided by 
Secretary Babbitt, by Secretary Glickman, and by Director 
Browner are very much appreciated from my standpoint in terms 
of trying to come to grips with this in a contentious and 
political environment. So, I appreciate your effort; look 
forward to your testimony; look forward to working with my 
colleagues and with the administration on this issue.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Vento.
    I agree with you in part.
    [Laughter.]
    Mr. Vento. I'll have to recheck it.
    [Laughter.]
    Mrs. Chenoweth. That always worries you, doesn't it?
    I want to let you know that we were just called for another 
vote. It's just one vote, and I'm going to just temporarily 
adjourn the committee immediately--recess the committee, 
immediately--to go take the vote and come right back. There's 
just one vote. And, then they promise us that there won't be 
another vote for 30 minutes to an hour.
    [Laughter.]
    So this Committee is temporarily recessed.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order.
    I am very pleased to introduce our panel of first 
witnesses: the Honorable Bruce Babbitt, Secretary of the U.S. 
Department of the Interior; the Honorable Carol Browner, 
Administrator, U.S. Environmental Protection Agency, and the 
Honorable Dan Glickman, Secretary, U.S. Department of 
Agriculture.
    Before we continue, I'd like to explain that I intend to 
place all witnesses under oath. And, this is a formality of the 
Committee that is meant to ensure open and honest discussion 
and should not affect the testimony given by witnesses. I've 
been assured by my staff that the witnesses were all informed 
of this before appearing here today and they have each been 
given a copy of the Committee rules. And, so, if you would 
please stand and raise your right hand.
    [Witnesses sworn.]
    We'd like to proceed with testimony from----
    Mr. Farr. Madam Chair?
    Mrs. Chenoweth. Yes?
    Mr. Farr. Are we going to do the same thing for Members of 
the Committee?
    Mrs. Chenoweth. I think we've had this discussion before, 
and I think you understand the rules of the Committee.
    I'd like to proceed with testimony from the Honorable Bruce 
Babbitt. Mr. Babbitt?

   STATEMENT OF THE HONORABLE BRUCE BABBITT, SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Secretary Babbitt. Madam Chairman, Committee Members, I 
appreciate the chance to be here and to be with my colleagues 
Dan Glickman and Carol Browner. The work that we have done 
together over the last several years, I think, speaks for 
itself. And I emphasize ``together'' because, I think one of 
the most unique features of the administration policy that we 
will discuss briefly, is that, in fact, it is administration 
policy which the three of us have worked out together and with 
many of our other colleagues.
    Madam Chairman, the problem that we come here today to 
discuss is well understood. The fact is that in many, if not 
most, of the inland forests of the West, we have seen large 
changes in the composition and structure of forests: a shift in 
species composition; in stand structure, characterized in most 
cases by considerable crowding and many more trees per acre 
than historically. With those species shifts and stand-
structure shifts have come problems of: disease; insect 
infestation; stunted growth as trees compete for nutrients, and 
water which is sometimes in scarce supply, and, of course, the 
fire hazard issue that we know so well.
    The really important study of these issues was done in the 
Blue Mountains right across from the Idaho border by Professor 
Nancy Langston. And for those who are interested in pursuing 
these issues, I highly recommend that book. She makes it 
crystal clear, as you suggest, Madam Chairman, that there are 
related problems and they go clear back to the 19th century: 
improper logging practices, over-grazing, and of course, a 
history of fire suppression. The three of them together have 
produced the kinds of fire hazards that we now see.
    Now, the administration response began several years ago in 
the form of the Federal wildland fire management policy and 
program review, signed off by myself and Secretary Glickman, 
and concurred in by Administrator Browner. The principal 
conclusion of that is, of course, that we must take management 
and administrative steps to restore the natural fire cycle. 
These forests in pre-settlement conditions were healthy and 
vigorous precisely because they co-evolved with rather regular, 
less-intense fires that kept them thinned out and healthy and 
prevented the situation--the fuel buildups--which leads to 
these catastrophic fires that we have been seeing.
    Now, this document has since then been translated into 
budget changes which Secretary Glickman and I, on behalf of the 
administration, have presented to the Appropriation Committees, 
and which are, I am pleased to tell you, now being acted 
favorably upon by the Appropriation Committees; and we can 
discuss those to the extent that you chose to do so. I just 
want to express my gratitude to the Appropriation Committees 
for helping us work through the necessary adjustments in fire 
accounts and fire funding to get on with the implementation of 
the policy that is reflected here.
    Lastly, Madam Chairman, I would urge the Committee, as you 
begin looking at these issues, to have a look at not just the 
paperwork, but at what's actually happening out on the ground. 
Because these administrative changes are now well underway and 
they are working exactly as predicted, and I think that the 
success stories really merit your careful attention.
    I would leave you, briefly, with three examples. The first 
one, of course, picked absolutely at random, is on the Boise 
National Forest in Idaho, where successive forest supervisors 
have demonstrated strikingly favorable effects with prescribed 
fire. The foothills fire in 1992 can be compared to the Tiger 
Creek prescribed burn, which effectively stopped the wildfire. 
Another nice example: the cottonwood prescribed burn-up above 
Boise which effectively stopped the 1994 Star Gulch fire.
    In California, the California Department of Forestry, the 
Federal agencies, have a wonderfully developing experience in 
the Sierra Nevada that I would call your attention to--
particularly interesting because the Federal agencies which are 
managing a new regime are doing that in cooperation with the 
San Joaquin Air Quality District. It's an example of how we've 
actually handled these air quality issues out on the ground.
    Lastly, I would call your attention to a land management 
project at Mount Trumbull, north of the Grand Canyon in 
Arizona, where Northern Arizona University and the BLM have 
done a fire-driven, mechanical-thinning fire restoration 
project which is producing merchantable, pole-size ponderosa 
pine for a re-tool mill in Fredonia, Arizona. I single that one 
out, in conclusion, because it is my belief that the 
restoration of the landscape must be fire-driven; that 
mechanical-thinning has a role to play which depends very much 
upon the specific landscape, and there are, at least in this 
case and some others, some economic benefits that can be 
derived from ecologically planned, fire-driven restoration.
    Madam Chairman, I see the red light, I appreciate your 
indulgence in my running overtime, and thank you very much.
    [The prepared statement of Secretary Babbitt may be found 
at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Secretary. I don't know 
whether it's the power of your testimony or what, but is that 
table tilted? Or, is it?
    [Laughter.]
    Ms. Browner. Staff requested it.
    Secretary Glickman. We're trying to get as close as we 
can----
    [Laughter.]
    Mrs. Chenoweth. Thank you, sir.
    The Chair now recognizes Ms. Browner.

  STATEMENT OF THE HONORABLE CAROL M. BROWNER, ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Browner. Thank you, Madam Chairman, and Members of the 
Committee for inviting us here today. I am pleased to join my 
colleagues, Secretary Babbitt, Secretary Glickman, in this 
discussion on wildland fire management.
    Let me say, right at the outset, that the Environmental 
Protection Agency recognizes the importance of fire as a 
natural part of the forest and grassland ecosystem management. 
Fire releases important nutrients into the soil; they reduce 
undergrowth and debris on the forest floor. Fire allows trees 
and grasses to be more healthy. We know that fires--
particularly planned, prescribed, managed fires--have been, and 
will continue to be, an integral part of keeping forests and 
our grassland healthy, and that they help prevent the larger, 
unplanned, catastrophic wildfires that pose serious threat to 
public safety.
    I want to be very clear about EPA's position. The primary 
reason for coming here today is to assure this Committee, all 
of the Members, that EPA's newly updated public health air 
quality standards for ozone, for particulate matter, will not--
let me be clear about this--will not hinder the government's 
ability to implement sound fire management programs. It is just 
that simple.
    These new standards, these public health standards, will 
not cause prescribed fires to be banned or reduced. They are 
fully consistent with measures already underway that are 
designed to minimize any impact these fires might have on air 
quality and public health.
    These standards are about protecting the public's health. 
They represent the most significant step we have taken in a 
generation to protect the American people, most particularly 
our children, from the health hazards of air pollution. Taken 
together, they will protect 125 million Americans, including 35 
million children, from the adverse health effects of breathing 
polluted air. They will prevent approximately 15,000 premature 
deaths, about 350,000 cases of aggravated asthma, and nearly a 
million cases of significantly decreased lung-function in 
children.
    Clearly, the best available science shows us that the 
previous public health air standards were not adequately 
protecting Americans from the hazards of breathing polluted 
air. Revising these standards, as we did this summer, will 
bring enormous health benefits to the Nation.
    Now, obviously, prescribed fires, natural fires can cause 
smoke-containing particles that above certain levels would fit 
the definition of fine particles which would pose a threat to 
human health. I think what some people have done, 
unfortunately, is taken this to mean that complying with the 
public health--the more protective air quality standards--will 
require a reduction, or even an outright prohibition, of 
managed fires on public land. That is simply not the case. I 
have heard--it is a rather tantalizing argument that's been put 
forward by some, I guess you could summarize it as: EPA air 
quality standards are bad for forests. Not true; that's not the 
case.
    In terms of natural fires, which do occur, on the days that 
those occur, the data, the air quality data for those days is 
excluded. It is thrown out of the system. It is not a part of 
how we evaluate whether or not a particular community's air 
meets public health standards.
    In terms of prescribed fires, we think they are an 
essential--a valuable--tool, and we would never allow our air 
standards to inhibit sound forest management practices designed 
to reduce the danger of wildfires to humans and to property.
    Madam Chairman--Chairwoman--we can have both: clean air, 
public health protection, and sensible forest agricultural fire 
management. We do not have to choose.
    We have worked very closely with the Department of 
Interior, Department of Agriculture, to carry out their 
policies to allow for the sensible implementation of prescribed 
burning practices. We have agreed on how best to manage these 
so they do not contribute to air quality problems. We will 
continue with each of these departments, with State and local 
officials, as we see these policies implemented.
    We can accomplish both objectives and protect the public 
health. We can use fire as a sensible management tool.
    We look forward to answering any questions the committee 
may have.
    [The prepared statement of Ms. Browner may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much.
    The Chair now recognizes the gentleman from Kansas, the 
Honorable Dan Glickman.

   STATEMENT OF THE HONORABLE DAN GLICKMAN, SECRETARY, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Secretary Glickman. Thank you, Madam Chairman, and it's an 
honor for me to be here, back with some of you who I served 
with for so many years.
    I would like to introduce the Chief of the Forest Service 
is with me, Mike Dombeck, behind me; and Mary Jo Lavin, who's 
National Director of Fire and Aviation at the Forest Service. 
They are very knowledgeable about some of the specifics that 
you might have.
    And, I have a longer statement and I would ask that it be 
included in the record as a whole, and I'll just make a few 
comments.
    Mrs. Chenoweth. Without objection.
    Secretary Glickman. One is to tell you that I have enjoyed 
the relationship with Secretary Babbitt, the relationship 
between the Department of the Interior and our Department. And, 
there is an era of cooperation and collaboration which I don't 
think existed in years past, and I think it is important that 
we have a national policy, not a USDA policy or a Department of 
the Interior policy. I believe that exists.
    I also would like to say, and I've heard this said before, 
that our fire policy is not--and I repeat ``not''--to simply 
put a match to the forests. Our policy involves: mechanical 
forest treatment, budget-structured changes, new planning 
priorities, personnel training, new research, carefully planned 
prescribed burns, and dozens of other initiatives to meet this 
challenge. And, I would like to echo Secretary Babbitt's views 
that the Congress has been most helpful in terms of giving the 
resources necessary to do this kind of effort.
    Four basic points: No. 1, we cannot eliminate fire totally 
from the world, but we must manage it. As you know, and 
everybody in this room, that fire is a natural part of the 
ecosystem; it's impossible to totally fireproof a forest, so 
what we have to do is make a forest's condition such that a 
fire does not get out of control.
    Fire data shows that fires are getting more frequent, more 
intense. So the idea is to do fuels treatment as opposed to 
fire suppression, not only because we keep a forest from 
burning down, but the costs are extraordinarily. The Chief 
tells me that the costs are about 10 times more to do 
suppression than to do fuels treatment, anywhere between $40 
per acre for fuels treatment to $400 an acre for suppression. 
And as the Chief has stated to you before, over nearly 40 
million acres need fuels management in our forest system and in 
our total system. So that's the first issue.
    The second issue is: The solutions have to be comprehensive 
and sophisticated. As Secretary Babbitt says, they involve a 
lot of things: Mechanical fuels treatment, thinning, and 
harvesting are important. We estimate that nearly one-half of 
that 40 million acres needs some form of mechanical fuels 
treatment in order to get into a situation where other forms of 
treatment are useful. The budget structure needs to be changed 
to facilitate appropriate treatment, more fuels treatment, and 
in fact, we are working on that. Employee training has been 
changed to meet new challenges, and land management planning 
addresses new understandings in fire ecology which we are 
learning.
    Third, is: Solutions are being implemented on the ground 
today. The acres of prescribed fire treatments nearly doubled 
in 1997 from 1996, more than meeting the targets that the 
Forest Service, and the folks at the Department of the Interior 
had planned upon. The area of fuels treatments have doubled 
from 1992. Safety policies have reduced injuries and fatalities 
since the catastrophic fires in the early 1990's. And, research 
programs, particularly our Research Forest Products Lab in 
Madison, Wisconsin, have refocused on many aspects of fire 
management as well as alternative uses for some of the wood 
products that have had not a lot of value in times past.
    The fourth point I would make is: The collaboration is 
there. There is effective collaboration with EPA on air quality 
issues, and Interior and Agriculture are working together to 
coordinate policies. We are also working with State foresters, 
western Governors, local units of government; we provide 
assistance, including monetary assistance, to local 
firefighters in order to facilitate more efficient and 
effective management.
    And, I would finally point out, which you already know: 
When there are fires, we do not fight these fires as 
independent agencies. There is a fire center, in which the 
fires are fought as if there is a war on. And the battle is to 
extinguish that fire; and the soldiers in that fire are all the 
elements of the Federal and State and local governments working 
under a management scheme that's appropriate to that particular 
fire. And, you know, fire knows no boundaries, nor should its 
organization know any one chief, so to speak, to run the fire. 
It's based upon who has the knowledge, where it's located, and 
who is involved. And, I think that's one of the reasons why 
we've really made some successes in the last two or 3 years 
that we want to continue forward.
    And I thank you very much.
    [The prepared statement of Secretary Glickman may be found 
at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Secretary, and I certainly 
am pleased with the work that has been pulled together by a 
number of agencies at the Boise Interagency Fire Center; that 
is remarkable.
    Chair now recognizes Mr. Schaffer from Colorado.
    Mr. Schaffer. Thank you, Madam Chairman.
    I have a number of questions. One, Ms. Browner, did I 
hear--you mentioned that the quality regulations are relaxed on 
those days that it is known that a fire has taken place?
    Ms. Browner. It's not a question of them being relaxed. In 
determining whether or not a particular area meets the public 
health air quality standards for fine particles, data is 
collected over an extended period of time, generally a 3-year 
period of time. If within that 3-year period of time you had a 
wildfire, for example, the data for that day or for those days 
on which the wildfire was burning would simply be excluded from 
the data base.
    Mr. Schaffer. Do you anticipate that to also be true on 
those days when a prescribed burn is known to have taken place?
    Ms. Browner. Well, the first thing with respect to 
prescribed burns is that they be done following specific 
guidelines that are designed to speak to air quality benefits 
and public health and safety concerns. What we have found--and 
we are working with the Department of Agriculture in terms of 
prescribed burns, both on for-

est lands and agricultural lands--is that the vast majority of 
these can be sensibly managed and not in any way contribute to 
an air quality problem. What it generally means is that you 
have to burn under certain weather conditions. Frequently, 
those are the same kind of weather conditions that you would be 
using for public safety reasons; you need to be monitoring in a 
particular way. I mean this is just----
    Mr. Schaffer. But, because of those guidelines, you have no 
plans to exempt the measurement, similar to the way you do for 
wildfires? Is that correct?
    Ms. Browner. We're completing our work with the Department 
of Agriculture on the prescribed burning policies and that is 
certainly something we can look at, which is if a prescribed 
burn were to perhaps get out of control, if it were to create a 
data problem--again it's many years of data that you select--of 
what we would do with that particular data point.
    Mr. Schaffer. So you are studying this and considering it, 
but there are no plans to exempt those days where prescribed 
burn takes place. Is that accurate?
    Ms. Browner. No, that's not accurate.
    Mr. Schaffer. OK, tell me again what you said. Maybe I----
    Ms. Browner. What I said is that we are now working with 
the Department of Agriculture to ensure that we have an agreed-
upon set of guidelines, if you will, for managing prescribed 
burns. If someone follows those guidelines, if they manage 
their prescribed burn pursuant to those guidelines, then 
everything is fine; there's no problem.
    Mr. Schaffer. And no exemption on those days for the----
    Ms. Browner. There won't--if you do it, they're designed to 
make sure that you don't contribute to the air quality problem.
    Mr. Schaffer. Right.
    Ms. Browner. You know we're preventing pollution the way--
--
    Mr. Schaffer. Right, I understand the intent. I just want 
to establish that it's your belief that, by burning these on 
effective time schedules, that meet your concerns that there 
will, in your opinion, be no necessity; therefore, there will 
be no exemptions from----
    Ms. Browner. No one's going to be taken to task for 
utilizing a prescribed burn pursuant to the guidelines.
    Mr. Schaffer. Are you familiar with the Grand Canyon 
Visibility Transport Commission study in 1990? It involved 
eight western States at considerable cost, about $8 million 
over the course of 4 years. That report found that land 
managers, in fact, were the largest source of air quality 
degradation. In fact, the 20 worst days were linked to forest 
fires and controlled burns included in that. Has--tell us how 
these new regulations in a prescribed burn--the policy to 
increase prescribed burning by 400 percent corresponds to the 
Grand Canyon Visibility Study and the recommendations that the 
Commission made?
    Ms. Browner. I mean, there shouldn't be any problem. Again, 
if it is a wildfire, and I don't know which events you're 
talking about within that study, but if it is a wildfire, if it 
is something outside of a prescribed burn, then the data point, 
the air quality monitoring data point----
    Mr. Schaffer. I'm talking about prescribed burns. That was 
the result of this Commission, was to basically fix a large 
portion of responsibility, in fact an inordinate portion of 
responsibility, on public lands managers associated with 
controlled burns.
    Ms. Browner. We agree. We think controlled burns are an 
absolutely essential tool, both in terms of managing our 
forests, managing our agricultural lands, and quite frankly, 
managing our air quality. We would rather have a prescribed 
burn and avoid, obviously, all of the problem, not the least of 
which are public safety, associated with wildfires. It's just 
common sense.
    Mr. Schaffer. The increase in controlled burns is on the 
order of about 400 percent by the proposal that Secretaries 
Glickman and Babbitt have suggested. Once again, in studying 
the air quality problems that western States have confronted, 
in an 8-State region, it was determined that the existing 
controlled burn strategies by public lands managers contributed 
inordinately to air quality problems that we have in the West. 
Now, increasing controlled burns by 400 percent, is--I think 
you're going to have a hard case to make to suggest that this 
is going to somehow improve air quality standards and not 
threaten the new standards at all--certainly not in a way that 
is to the detriment to all of our other efforts, whether it's 
auto emissions or manufacturers or whatever the case may be.
    Ms. Browner. We believe that you can manage prescribed 
burns in a way that does not contribute to air pollution 
problems--it's just that simple--including the proposals that 
have been put forward by the Department of Agriculture, the 
Department of the Interior.
    You know, to suggest that somehow or another people need to 
choose between having a sensible forest management strategy, 
including prescribed burn and clean air, it's just not 
accurate. I'll be honest with you, that is not what we--that is 
not a choice the public needs to make. They can have both, and 
they should have both, and that's what these policies will 
allow for.
    Secretary Glickman. May, I just make one quick comment, 
Madam Chair?
    Mrs. Chenoweth. Mr. Glickman.
    Secretary Glickman. I would note that we have seen in 1997, 
about 1 million acres in prescribed burns, which is a 
significant increase over 1996, and I don't believe there were 
any violations of EPA standards at all in that. Because, you 
know, we have been working with them very closely. I would also 
say----
    Mr. Schaffer. Is that the new standards?
    Secretary Glickman. Well, we've just been working with them 
based upon our general collaboration. But the Grand Canyon 
Visibility Transport Commission, as you mentioned, did produce 
some dialog with air quality agencies, stakeholders like 
Federal land management agencies in States which have led to 
some common-sense changes in mechanical and chemical fuels 
treatment and also additional support for biomass energy 
production and research that we're doing in mitigation smoke 
emissions. So, I think that that Commission has helped us in 
terms of making sure our prescribed burns are done correctly 
and without it contributing to air quality problems.
    Mr. Schaffer. Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. The Chair 
recognizes Mr. Vento.
    Mr. Vento. Thank you, Madam Chair.
    It's sort of the way we sit here--they've had this Western 
Pacific problem in terms of how not to manage rainforests in 
terms of what's happening there and in terms of the 
deforestation and some of the problems associated with it. So, 
obviously, forests and burning of forests can contribute 
substantially to air quality problems.
    But isn't it true, Secretary Babbitt, Secretary Glickman, 
that in the various management plans for the land that you, in 
fact, take into account that they are, in fact, consistent 
with--they go through EIS; they go through a process where 
you're actually working collaboratively to say we're going to 
treat this land or this forest or this BLM district in a 
certain manner and a part of it could be or is prescribed burn? 
It is an effort to get rid of these fuel loads; you provide for 
thinning and you provide, obviously in some cases, for harvest 
where appropriate. Secretary Babbitt?
    Secretary Babbitt. Mr. Vento, I would make this point: A 
properly constructed prescribed fire program will improve air 
quality on a running average over the air quality you would 
have without the prescribed fire program. And, I must tell you, 
anybody who has ever been in a fire camp on a wildfire will 
understand that with no further explanation.
    Mr. Vento. But I'm just saying that the plans that we have 
for the land--I understand that, Mr. Secretary, but, obviously, 
there are some questions being raised about it, but I'm just 
trying to reassure those that have these----
    Secretary Babbitt. Oh, sure the plans----
    Mr. Vento. The plans actually provide for--and they go 
through an EIS, and they go through--so they are consistent 
with current and whatever future policy rules and regulations 
that----
    Secretary Babbitt. The plans must comply with the local air 
quality management regulations. We went through that back in 
the 1980's, when the superintendent of Yosemite National Park, 
running a management prescription, got a citation from the 
adjoining county for violating air quality standards. Then and 
there, we resolved that issue by saying we're going to sit down 
in advance and we're going to comply with the local air quality 
management plans, and it's done routinely.
    Mr. Vento. Well, for that matter, I mean, Secretary 
Glickman, when the Forest Service has a harvest area, don't 
they have some slash that sometimes is burned as well? And so 
that also has to comply with the air standards; is that 
correct? It isn't just this prescribed burning? Well, I mean it 
does, if they--if it's a non-attainment area, if there's some 
other problems, they may say you have to treat that slash in a 
different way?
    Secretary Glickman. Correct.
    Mr. Vento. You know, so, it's--what you're pointing out 
is--and I'm very impressed that the fact that the Forest 
Service has this aggressive plan and I hope that we can 
continue funding it faced with the budget realities that we do.
    But, Mr. Secretary, Secretary Babbitt, I notice you have 55 
million acres that you say need treatment. And you know, the 
best bet that you have on the chart that I have there looks 
like within about three or four years we might hit a million. 
So, based on that, and based on sort of a recurring problem 
here, isn't it--would it be accurate to say that, you know, 
this 50-year plan is probably one that should be accelerated, 
if possible?
    Secretary Babbitt. Well, Mr. Chairman, I think both the 
Forest Service and our agencies have a similar fix on this. 
There is no way that we can make up a century of accumulated 
problems in 5 years or 10 years. Now, the targets for the 
Interior Department are: We'd like to get up to about a little 
over 2 million acres a year by the year 2000. And that's 
against a total acreage needing treatment of 55 million. Now, 
if that were all the same kind of land, that would mean a 25-
year rotation. And, that's probably not adequate, because most 
of this land probably needs a fire rotation of more like the 
order of 5 to 15 years, something like that. But it's a 
significant start, and if we use good judgment in setting 
priorities, I think it's a very adequate approach.
    Priorities, obviously, for the Forest Service would be Lake 
Tahoe, urban-wildland interface; for us, similar areas around 
western cities. Other priorities would look at the stands that 
have been badly damaged by insect outbreaks, that kind of 
thing, but those are judgments that I think we can make.
    Mr. Vento. Well, I appreciate that. One of the issues I 
raised, Secretary Glickman, was the issue of the urban-forest 
interface, and the Forest Service especially with its leasing 
programs sometimes has actually contributed to that. I talked 
about collaboration with the States and counties. Obviously, we 
need to spend a lot of money, and much of what is spent on 
fire-fighting today is spent in terms of health and safety 
because we have that urban-forest interface. Do you have any 
comments on that, and any types of programs?
    It's, obviously, not exactly what you want to hear in terms 
of the coming from Washington trying to tell people what their 
local zoning ought to be, but--and so it does represent a 
serious concern. I'm not implying that you should do that, or 
Secretary Babbitt; I think you've got enough difficulty with 
the responsibilities that you have. But, I think we should 
expect States and counties to, in fact, respond to, in fact, 
help us with and eliminate the need for suppression in these 
instances. Mr. Secretary?
    Secretary Glickman. I would ask the Chief to respond. Just 
quickly, I would say that we are doing our best to try to train 
these fire departments in the areas of urban interface, 
cooperatively, in terms of how to respond better, getting 
information--communications--out in terms of fire prevention 
techniques.
    I was up the Buffalo Creek fire myself, right outside of 
Denver where that particular fire occurred, and seeing the 
number of people who were involved in camping activities very 
close to the Denver area, this is a very high priority. But the 
Chief, I'd like him to, if possible, respond.
    Mr. Dombeck. With the permission of the Subcommittee 
Chairman?
    Secretary Glickman. Why don't you identify yourself for the 
record?
    Mr. Dombeck. Mike Dombeck from the Forest Service. I'd just 
like to say our--in the new fire plans that we have--our top 
prior-

ity is dealing with the urban-wildland interface. In the 
planning process, in our response, and that, you know, I think, 
because, you know, these residences get there by a variety of 
reasons. But, when you travel in the West, and in any parts of 
the country, and when you see the 5-acre lots, the 10-acre 
lots, with dense forests around them with fuel problems, I 
think, that really paints the picture for us.
    Mr. Vento. Well, Madam Chairman, one of our best allies is 
communities like Portland where they're trying to deal with the 
urban sprawl, and I just think that this all comes together and 
we have an interest in it. I won't be able to return after this 
vote, Madam Chair, because of the Eximbank legislation is going 
to be next on the foreign. They need my help.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Vento. The Chair now 
recognizes Mr. Calvert.
    Mr. Calvert. Thank you, Madam Chairman.
    Administrator Browner, we've had discussions on the new 
clean air standards, and, as you know, I've had my problems 
with the new standards considering the fact, you know, 
California probably cannot meet its existing standards until at 
least 2010. And, as was pointed out in an editorial that was in 
a recent Science magazine issue talking about the lack of 
science on particulates, primarily of 2.5 and below, is lacking 
at best. But saying all of that, my logic obviously wasn't 
listened to and we're moving on to these new clean air 
standards. There may be discussions about this in the halls of 
Congress later this session; we'll find out.
    But back to the issue at hand, and that's the forest fires 
and how that's going to be handled. You know, I'm from the 
South Coast Air Basin, probably the most polluted air quality 
in the United States. However, we've done a particularly good 
job, I think, in the last 50 years, and we're celebrating our 
50th anniversary of cleaned-up air. As a matter of fact, Jerry 
Lewis, my colleague, wrote one of the first clean air acts in 
the United States, and we've made great progress. And, by the 
way, Jerry has his problems with this new standard also.
    But saying that, fires, when they occur--and by the way, 
fire suppression in California, you know, we've gotten it down 
to an art; we have more fires than anybody else in this country 
and we do a pretty good job of getting them out, though we hear 
about the ones we don't put out. That's one of the problems. We 
have a lot of land that needs to be burned off, probably more, 
I suspect, then most areas in this country. And because of 
that, and because of these new clean air standards, even though 
you're not going to put them into effect until 2010, is to say 
that the fire days themselves are the days in which they will 
be removed from the formula in which we're going to put 
together both our ozone standards and our particulate 
standards. Those particulates hang around for a few days. It's 
like in-laws, you know, once they come, they stick around.
    Ms. Browner. We'll take those out. We'll take the in-laws 
out.
    Mr. Calvert. Those things have got to be considered when 
you put together those averages. Because we have the--we 
consider in southern California, particularly from the district 
that I represent--the law of unintended consequences. I don't 
think the flow-

er-loving, delphi sandfly was supposed to shut down the 10 
freeway either, and discussions of that occurring, you know, 
scares a lot of people. And, these air standards scare a lot of 
people. And, I would hope that, if in fact these go forward, 
that we can make sure that these are common sense and not the 
irrational regulations that we have experienced in my area 
before.
    Ms. Browner. Well, first of all, we would also join you in 
applauding the South Coast Air Resource Board for the work that 
they have done. They have not only done a good turn for your 
part of the country, but in many ways for the rest of the 
country. We have all learned, from many of the efforts they 
have been engaged in, how best to find the common-sense, cost-
effective solutions to air pollution and provide the public 
health benefits.
    In terms of forest fires, as I said earlier, don't create 
an ozone problem. The question is, obviously, the fine 
particles. And, I want to be absolutely clear, that where you 
have a wildfire, a natural event, it is absolutely our 
intention--we have been talking to the States about this to 
ensure that--the air quality data collected around that event 
is not included. You know, it just wouldn't make any sense to 
us. I mean, why do we want to put something into the data base 
that is beyond everybody's control? What this is about is 
getting people clean air in a sensible manner. So you have our 
commitment that those days, as you say, the in-laws on the 
front end or the back end, whatever----
    Mr. Calvert. Forgive me for being suspicious, and I 
understand your intent, it's what really happens that I'm 
concerned about. Because, in the years that this is imposed, I 
suspect that many of us won't be here in Washington.
    Ms. Browner. Well, I can assure you I won't be here.
    Mr. Calvert. Secretary Babbitt may be back in Phoenix, and 
I'll be back in Riverside, and we want to make sure that these 
laws are being imposed on people the way we say they are and 
not down the road when we get into issues like the Endangered 
Species Act, where we get into some pretty interesting fights 
around here.
    Ms. Browner. But, I wouldn't ask you to simply take our 
word; we have committed, and are in the process now of, and 
have already put portions of the implementation strategy in the 
public record. All of this goes into a Federal Register notice. 
I mean, no one is being asked to take anyone's word here. What 
I am explaining to you is how we have articulated a common-
sense strategy particularly designed to deal with these kinds 
of events, and it will be in writing, and it will be in the 
Federal Register.
    Mr. Calvert. That makes me feel better.
    Mr. Vento. Will the gentleman yield to me? Gentleman yield 
to me?
    Mr. Calvert. Whatever time I have left.
    Mr. Vento. Well, I know we've got to go for a vote, but I 
was just going to point that they don't include in the record 
natural forest fires; and when the plan for this is you deal 
with humidity, wind, fireload, in terms of dryness, and so 
forth, so there are a lot of different factors that go into it 
that minimize the air quality problems.
    Ms. Browner. Madam Chair? If I might just----
    Mrs. Chenoweth. Ms. Browner?
    Ms. Browner. There are monitors out there right now, a 
monitoring network measuring 2.5. We do not have a 2.5 
violation where there has been a fire. So, it hasn't happened. 
I understand why people are raising the concern, and we should 
speak to it and ensure that if it ever does happen, we know how 
to manage it. But we have records already, and it is not 
happening; the concern that people are raising has not yet 
occurred. But that doesn't mean that we won't speak to it in 
The Federal Register.
    Mrs. Chenoweth. Thank you, Ms. Browner. When we return, if 
Ms. Christian-Green will yield her time to Mr. Farr who's asked 
for it, we'll return immediately to Mr. Farr. We only have a 
little less than 5 minutes on our vote. So----
    Mr. Farr. Make a quick statement, Madam Chair, that's all I 
wanted to make.
    Mrs. Chenoweth. I'm afraid we're going to have to 
temporarily recess, so we can go for our vote.
    Secretary Babbitt. Madam Chair, if I may, I have a 12:30 
appointment, and if you will be willing to do without my 
presence, I would be very grateful.
    Ms. Browner. I have a 12:25.
    [Laughter.]
    Mrs. Chenoweth. Mr. Secretary, I'm very sorry about these 
votes and, yes, I do see you only have 9 minutes to make your 
appointment. But, we do need--Mr. Glickman, if you can remain; 
Ms. Browner, if you can remain.
    Secretary Glickman. My problem is that I think I have the 
same appointment as Mr. Babbitt. But, I can be here about 15 
more minutes--15 or 20 more minutes.
    Mrs. Chenoweth. I think, then, what the Chair will do is 
simply say that we will submit our questions in writing to all 
of you, and if we could receive your responses early on, I 
would very much appreciate it.
    [The information referred to may be found at end of 
hearing.]
    Secretary Glickman. I would also say, Mr. Dombeck, I will 
have him remain, the Chief of the Forest Service, if you would 
like to have that?
    Mrs. Chenoweth. I would appreciate that very much. And, if 
Ms. Browner has to leave, if someone could remain to answer 
questions for you?
    Ms. Browner. Certainly.
    Secretary Babbitt. And, I will leave Jim Douglas as my 
proxy.
    [Laughter.]
    Mrs. Chenoweth. Thank you, Mr. Secretary, thank you very 
much.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order.
    Mr. Kildee?
    Mr. Kildee. Thank you, Madam Chair. I appreciate the way 
you are handling all these votes, and I appreciate the 
witnesses' understanding. I think the only person who really 
understood the votes was Dan Glickman, having served in this 
body for about 18 years.
    I have one question: It was stated that about 55 million 
acres of land are candidates for prescribed burning and we're 
doing about 1 million acres a year and we'd like increase that 
to 2 million. How many additional acres, however, are being 
added to that figure by the same forces of nature that have 
caused this present situation? Per year, how many additional 
acres might be added? I'm trying to figure out how we're really 
making progress on this, because I am sure there are additional 
candidates for that category.
    Mr. Dombeck. Yes, the--and we will try to get--I can't give 
you a specific acreage, but we will try to be as specific as we 
can on a written response. But, what I can tell you is that 
from the standpoint of the 191 million acres in the National 
Forest System lands, our goal is to treat up to 3 million acres 
per year. And, at that rate we would be where we want to be by 
2012.
    And, as Secretary Glickman mentioned earlier, our target 
this year, this current year that's ending the fiscal year 
ending tomorrow?--today--we had planned on doing 750,000 acres, 
and we reached 1 million. The reason we were able to exceed our 
targets is because we had a fairly easy fire year, the weather 
conditions, and we had additional resources we could deploy in 
a--to deal with some of the problems, rather than--we were 
blessed with an easy fire year from the standpoint of 
suppression. I guess I can't speak for Interior on acreage.
    [The information referred to may be found at end of 
hearing.]
    Mr. Douglas. For the Department of the Interior, I would 
say the same thing that Mike has said: We will provide more 
detailed figures for the record. But, you're correct, when 
there is wildfire--natural ignitions--a lot of times those are 
occurring in areas that we would otherwise be treating with 
management-ignited fires at some point. Of course, not all. 
And, take for example, the fire that is just happening right 
now outside Sacramento, that's clearly an area that we wouldn't 
be burning deliberately, certainly under those kinds of 
conditions and circumstances. So we couldn't count that as a 
fuel-treatment acre.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4511.001
    
    [GRAPHIC] [TIFF OMITTED] T4511.002
    
    [GRAPHIC] [TIFF OMITTED] T4511.003
    
    [GRAPHIC] [TIFF OMITTED] T4511.004
    
    [GRAPHIC] [TIFF OMITTED] T4511.005
    
    Mrs. Chenoweth. Mr. Douglas, excuse me.
    Mr. Douglas. I'm sorry.
    Mrs. Chenoweth. Could you state your name for the record?
    Mr. Douglas. Oh, I'm sorry, I'm Jim Douglas with the 
Department of the Interior.
    So there is a combination there of some of the natural 
ignitions certainly will count against those acres.
    Mr. Kildee. OK. Well, get the figures both for BLM and the 
Forest Service about how many acres, just by the same forces of 
nature, might be added each year, so we'll see how much 
progress we are making hopefully by 2012. I assume you have 
factored that into that expectation for 2012?
    Mr. Dombeck. Yes, the challenge is a net gain.
    Mr. Kildee. Right. Knowing quite well that they are quite 
different, and I know they are horribly different and--but the 
fires that are occurring in Malaysia, have you studied what 
they have done wrong over there, and are they in turn studying 
what you are doing right over here?
    Ms. Lavin. Yes. I'm Mary Jo Lavin from the Forest Service. 
Yes, we have looked at those acres, and we have looked at the 
problem in Indonesia. We have actually four teams that have 
gone in the past, from the early 1990's. We have had several 
teams that have gone over and provided training for them in 
fire-fighting. We actually had a combination four-person crew 
that went over recently--just returned 2 days ago--that 
included three members from the Forest Service and it also had 
a person from Interior. What we did was provide training for 
them, as we have in the past, for their management as well as 
their crews. We know what they're doing that is a problem; 
that's a decision of their government to continue those 
practices.
    Mr. Kildee. I appreciate your answer. I have been very 
concerned about that and I encourage you to continue to do what 
you are doing. I think it's very important.
    If I could ask just one additional question--I have in my 
folder here, this is probably to Sally Shavers; is she still 
here? It says, ``Projected non-attainment counties for the PM 
2.5 and ozone revised,'' and I don't see any source of where 
this--is this from EPA or not? Are you familiar with this 
document?
    Ms. Shavers. No, sir, I'm not familiar with the one you 
have. I know there is a projected list, but those are not based 
on----
    Mr. Kildee. I think--could you take a look at the one there 
and see if that's from EPA. I always like to know the source 
of--there's no authority on here.
    Mrs. Chenoweth. Let me ask counsel.
    Ms. Shavers. No, sir, that's not ours.
    Mr. Kildee. It's not yours. OK, all right.
    Ms. Heissenbuttel. Staff provided that for the information 
of the Members.
    Mr. Kildee. Who provided that?
    Ms. Heissenbuttel. We received that from the American 
Petroleum Institute.
    Mr. Kildee. From the American Petroleum Institute. OK. I 
think it's very important, Madam Chair, if we could give the 
source for these things, because EPA putting it out and 
American Petroleum Institute, they might have a different 
perspective or different way of counting. I appreciate that.
    Mrs. Chenoweth. Thank you, Mr. Kildee.
    Mr. Kildee. Thank you very much.
    Mrs. Chenoweth. In my desire to make sure that the 
Committee was afforded as much time as possible while Mr. 
Dombeck was here, I neglected a responsibility of mine and that 
is to make sure that all the witnesses are identified and that 
they are all sworn in. And, so, I wonder if you could stand and 
raise your right hands please.
    [Witnesses sworn.]
    Mrs. Chenoweth. Can we start for the record with the 
identification of the witnesses with Mr. Dombeck? Mr. Mike 
Dombeck. And then next is----
    Ms. Lavin. Mary Jo Lavin.
    Mr. Dombeck. She is Director of Fire and Aviation of the 
Forest Service.
    Mrs. Chenoweth. Yes; and then next?
    Ms. Shaver. Sally Shaver with EPA, Director of the Air 
Quality Strategies and Standards Division.
    Mrs. Chenoweth. Thank you.
    Mr. Douglas. And, I'm Jim Douglas of the Department of the 
Interior in fire policy.
    Mrs. Chenoweth. Thank you. And while we knew who you were, 
we wanted to make sure that the record was very clear.
    So with that, the Chair recognizes Mr. Pombo.
    Mr. Pombo. Thank you, Madam Chairman.
    Ms. Browner said that the forest fires would be exempt from 
the standards, or that that period of time when the fire was 
burning would be exempted and that something would be worked 
out similar to that on prescribed fires. Why, and I know she 
said it just made common sense, but why is it being exempted? I 
mean, it happened?
    Ms. Shaver. What we are doing--we have a natural events 
policy which was published in 1996, which for wildfires that 
are under active suppression, we discount those data where 
standards are violated because those were not controlled; they 
were not instigated by man and that kind of thing. What we're 
looking at in the policy, and we've not finished with that yet, 
is some--if you are in accordance with the land management 
plans which are part of the--go through the NEPA process--and 
you've addressed the air quality issues, then we don't envision 
there will always be air quality standard violations. In fact, 
if you manage the burns appropriately, there probably won't be. 
In the event that the weather conditions might change, or in 
the event that we didn't follow through correctly on the burns, 
we didn't follow the prescription for the fire, then we would 
say that there might be some--there could be a violation at 
that point in time. Then the appropriate response would be 
taken to that. However, if you're following the prescription, 
and you get an air quality violation, then we don't think that 
there should be a non-attainment designation based on that. And 
that's the type of policy that we're trying to put together 
right now.
    Mr. Pombo. Are there other natural events that are not 
controlled by man that are exempted as well?
    Ms. Shaver. Yes, the natural events policy addresses dust 
storms as well as volcanoes, including the wildfires.
    Mr. Pombo. What about weather patterns, unnatural weather 
patterns? Is that also exempted as well?
    Ms. Shaver. No; of course, the unnatural weather patterns 
would be a part of the dust storm aspect, but then that's based 
on whether the soil conditions and the wind conditions in that 
area would constitute an unusual event.
    Mr. Pombo. I wanted to ask the Forest Service, I know, Mr. 
Dombeck had to leave, but how are the wilderness areas--and 
this I guess would involve Interior as well--how are they going 
to do prescribed fires in those particular areas?
    Ms. Lavin. We will continue to do prescribed fires, 
regardless of location, but particularly, since you asked, on 
the wilderness areas, as we have in the past. We will use 
primarily natural causes but we do have the authority, and will 
use as we have in the past, management ignitions, if that would 
be more appropriate. We will look to follow the same 
regulations that we have followed in the past; there will be no 
change, because these are the Federal fire policy or the new 
air quality policy.
    Mr. Pombo. Why is it preferable to allow a fire to burn, 
whether it's natural or man-made, than to do mechanical 
thinning?
    Ms. Lavin. I'm sorry, sir, I didn't hear the last part of 
your question.
    Mr. Pombo. Why is it preferable to allow a fire to burn, 
whether its natural or man-made, in preference to mechanical 
thinning or other management techniques?
    Ms. Lavin. Right. There are times when it isn't preferable. 
What we do is in the preplanning process, in the planning 
process, and looking at it ahead of time, and looking at what 
is the best way to manage those resources, we make options and 
make those choices. There are times, for example, when we 
cannot use fire as an appropriate tool because the biomass is 
so great that we would start a catastrophic fire ourselves. And 
that is basically what the situation that you have in 
Indonesia, which was the question asked earlier.
    We must follow a prearranged plan, and that plan tells us 
what are the most effective ways to manage that resource. And 
in times, in fact, in about 50 percent of the lands that the 
Forest Services manages across the Nation, we feel that we will 
need to use mechanical treatment prior to our introducing a 
regular regime of prescribed fire.
    Mr. Pombo. About 50 percent?
    Ms. Lavin. About 50 percent nationally. In some of the 
States in the West--for example, the State of Montana--we know 
that they have told us there that only 10 percent will be able 
to use fire as the first means of managing those resources. So 
we will work our way toward using fire, low-intensity fire, 
which is a more natural process than the mechanical treatment.
    Mr. Pombo. It seems like in the last several months a real 
emphasis has been placed on controlled burns, on fire; and 
logging the forests, cutting out the trees of any kind, has 
been decreased dramatically in recent years. How do you go 
about making that deci-

sion as to when it's best to let something burn or to light a 
fire versus allowing someone to go in and thin the trees?
    Ms. Lavin. Those decisions are made on a site-specific 
basis. So they are made as a local decision.
    In the planning process, when you're looking at the 
prescribed fire, or you're looking at the land management plan, 
you're involving the public. That's the advantage that we have 
over the wildfire, which doesn't involve anyone when it 
actually happens. So, in the planning process we're making 
those decisions, but making those decisions with the local 
``experts,'' and I'm putting quotations marks around that, as 
well as the public who are living there who have very expert 
opinions about the place where they live. So we're making those 
decisions together on what is the best way to treat that 
particular area.
    Mr. Pombo. So those decisions will be made locally and they 
will not be made back here?
    Ms. Lavin. Very definitely. They have to be made locally. 
We can make general policy, and we do, from a national basis, 
but when we actually look at implementing that policy, that is 
a site-specific, local decision involving--especially in the 
planning process--involving all the publics.
    Mr. Pombo. Madam Chairman, I have just one additional 
question for the Department of Interior. One of the issues that 
has arisen around the forest over the past several years has 
been the issue of endangered species within those particular 
forests. How is it going to be handled to go into a particular 
forest and light it on fire with the endangered species that 
may exist there, or the potential habitat? One of the issues 
that has been raised quite a bit in recent years is that, even 
though the species may not be there currently, it's potential 
habitat--and I think most of the forests that we've talked 
about are potential habitat--for an endangered species.
    Mr. Douglas. Let me address that by also addressing the 
last two questions you asked as well.
    All of the work on land management practices, forest 
management practices, is done in accordance with the planning 
process. So, whether it's harvesting of timber or burning or 
managing for a particular wildlife species or for recreation, 
whatever, it's all based on land management planning, and all 
of the Federal agencies have roughly similar land management 
planning practices. So, in the course of that planning, we 
would consider all of the resource management issues involved, 
including endangered species: what's there now, what the 
habitat is, what it needs to survive, what's in the area, that 
sort of thing.
    We would look at, in particular with relationship with 
fire, the role in that particular area that fire has 
historically played in maintaining and sustaining a healthy and 
natural system there. In many cases, those endangered species 
depend on a particular vegetative forest type that's driven by 
fire in order to survive. So there's not necessarily a direct 
conflict between an endangered species population or an 
endangered species habitat and the use of fire, and in fact, we 
may want to use fire to maintain suitable habitat for that.
    So, the answer is: through the planning process, through 
the analysis of scientific information, other management 
constraints, including socio-, and political, economic 
constraints, we'll look at what our resource options are, what 
makes sense from an ecological standpoint, what makes sense 
from other land management standpoints, and take appropriate 
management actions. It may be a combination of fire, use of 
mechanical treatments, depending on what our constraints are 
and what we're trying to manage for.
    So, endangered species becomes one of the factors that are 
considered. It's not the only factor; it fits in there along 
with everything else.
    Mrs. Chenoweth. Thank you, Mr. Pombo. The Chair recognizes 
Mr. Doolittle.
    Mr. Doolittle. Thank you, Madam Chairman. Let me ask the 
Forest Service, if 50 percent of the public forest land in the 
country is deemed to be unsuitable for prescribed burn, what 
would be the percentage you estimate in the State of 
California.
    Ms. Lavin. I can't answer that with exact percentages, Mr. 
Doolittle. I can do that by checking with our region and I will 
get back to you in writing.
    Mr. Doolittle. OK. And, you might break it down, too, by, 
you know, the sections of the State: the Sierra Nevadas, for 
example. The area that's on fire now, which I believe is Yuba 
County, is that an area that is deemed unsuitable for 
prescribed fire?
    Ms. Lavin. Well, it would be unsuitable for the Federal 
Government to be doing prescribed fire there because those 
particular lands that are involved in the two large fires in 
California, I believe, are on private land that is protected by 
the State of California.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. What about the public lands in that region? 
Do you know their suitability for prescribed burn that are on 
public land?
    Ms. Lavin. I can't speak to them specifically. I looked at 
the details of the two fires and I questioned the ownership of 
the fire because I saw that they were in--that the fires were 
in 60- to 70-year old timber with a high accumulation.
    I can't answer that, but they are the factors that we would 
use as we look at those and get the specific figures for you. 
We would look at what was the fire regime in that area, and I 
would be asking the region to tell me what, how they had 
planned to treat that area.
    We have an interesting study that our research people have 
developed and that is a simulated exercise. We did it on one of 
the forests in California following the Huffer fire, so it was 
on the Lassen National Forest. And we looked at that, what was 
the historic land cover, and we have that data across the 
Nation for all of the forests, national forest lands. And we 
looked at what is the current land cover there, and we saw that 
with the current land cover, for example, with fire having been 
suppressed in that area, that the fire intensity, the length of 
the flame, for example, currently with the present ground cover 
would be much greater than it was historically when fire was a 
natural part of the process.
    And, so it's that kind of use of research, use of the 
expertise that is local to that community, that we'd use in the 
planning process, and that we will use in getting back to you 
and giving you an answer on the question relative to the Sierra 
Nevadas.
    Mr. Doolittle. For a long time the Forest Service and the 
experts behind it believed that suppression of fire was the 
appropriate public policy. Is that not the case?
    Ms. Lavin. That's very much the case, Mr. Doolittle. We 
also--I know I used to work for the State of Washington, before 
I came to the Forest Service--came into the Forest Service--and 
I know that the State agencies, for example, used to call their 
divisions of fire or their programs, ``fire control,'' because 
we thought, at that time, that we could control fire.
    Yellowstone taught us a lot of important lessons, and then 
we have learned a lot since that time. And, I'm hopeful that we 
will continue to learn in the process. We have learned a lot of 
things about fire. We didn't realize in the past that they 
had--that fires were like floods--and that you had regular, 
recurring basis for both events.
    Mr. Doolittle. You brought up Yellowstone. It's my 
understanding we do not manage the forests on national 
parklands. Is that correct?
    Ms. Lavin. Let me ask Mr. Douglas to answer your question 
specific to the national parks, although I just was out there 
last week and saw both the national park and the Bridger Teton 
National Forest, and there is a difference in the way we 
manage. But let me turn that question, if that's all right with 
you, sir, over to Mr. Douglas to answer.
    Mr. Douglas. Yes, Yellowstone National Park is a National 
park, of course, but the same basic rules apply. And that is: 
There are land management, resource management plans, that are 
done and they're based on the underlying purpose of that land 
unit. In the case of the national park, it's not managed for 
resource production in the same way that many national forests 
are; it's managed more for its natural conditions. So they're 
probably going to have different fire policies, fire 
strategies, and land management strategies than they are 
adjacent. But they're all going to be based on, in both cases, 
what is the historic fire regime; what works best for restoring 
and sustaining healthy natural systems there.
    Mr. Doolittle. So, do they remove understory on National 
parks?
    Mr. Douglas. If it's appropriate to do so. One of the 
things we have to remember is that a forest is not a forest, is 
not a forest; and the kind of forest we're talking about in the 
greater Yellowstone area is much different than we're talking 
about further west in the inland West there. Ponderosa pine----
    Mr. Doolittle. Well, let's talk, in the Yosemite area, for 
example?
    Mr. Douglas. In the Yosemite area? Well, if things were 
going normally, and that is, we hadn't suppressed fires, as you 
point out for so long, we wouldn't have to go in and 
mechanically remove because fire would have--low-intensity 
frequent fires would have--removed a lot of that understory. We 
believe, in many cases--and this is what's going on in Sequoia 
Kings Canyon National Park right now--that we're able to, with 
judicious use of fire, and I think they're doing that as we 
speak, remove some of that understory with fire. If there are 
cases in which it is too thick, it's too close to structures or 
other high-value resources, we'll go in and do some kind of 
removal in order to facilitate the reintroduction of fire. But, 
ultimately, we want--the goal is--to place fire back in there 
in a role it played historically.
    Mr. Doolittle. Is it not, though, indeed, the case that in 
much, at least in California, if not--well, we've heard 50 
percent of the Nation--that they, the forests, are so choked 
with over-growth now that you could not safely use prescribed 
burning as a way of clearing out the understory?
    Mr. Douglas. And, that's exactly, I think, what both 
Secretaries said earlier today, which is: We need to use fire 
along with mechanical treatments to get back to a point where 
fire can safely be used. In some cases we can go straight to 
fire. In many cases, I think, that's what the Forest Service 
has been talking about with the 50 percent number; some 
mechanical treatments are necessary before we can use fire. In 
some cases we're always going to use mechanical because of the 
proximity to the communities, and so on. So we need to use all 
of those tools, not any one by themselves.
    Mr. Doolittle. Here's the question I've never had a 
satisfactory answer to. Let me pose it to you, or any of you 
there. It's my understanding, from testimony we've had before 
this Committee and others that I sit on, that the annual rate 
of growth on forests exceeds the annual removal of timber by 
like four or five to one. And my question to you is one: Do you 
accept those figures? And, two, if you accept those figures, 
how can we ever prevent catastrophic forest fires from 
occurring when we talk about some mechanical thinning? You'd 
have to quadruple the size of the Forest Service and have 
emergency regulation to hire logging teams to go in and log 
beyond historical standards to ever even hope to catch up with 
this. And, I'd like to know how you see us getting out of this 
dilemma.
    Mr. Douglas. I don't know the specific number that you're 
referring to, but I will say if you think about back before at 
least European settlement of this continent, there was a 
balance: Trees grew and either they died and fell down or they 
were burned or some combination thereof.
    Mr. Doolittle. Well, let me just jump in on that note. I 
mean, why do we assume that these were not managed before 
European settlement. We know for a fact the Indians managed the 
forests. And is there any reason to believe they weren't 
managing the forests before Europeans arrived?
    Mr. Douglas. There's ample evidence that indigenous peoples 
where in fact using fire to a great degree. My point, simply, 
is that our--certainly European--settlement has increased the 
amount of human intervention in the forest. But my basic point 
is that fire has always been there in one way or another 
consuming fuel.
    And, going back to your observation earlier, Mr. Doolittle, 
we thought it was prudent policy for many, many years to put 
those fires out before they burned very much of that fuel, so 
we're left with a lot that under other circumstances would have 
been consumed by fire. We clearly have a problem of too much 
fuel. What we clearly need to do is remove some of it 
mechanically, where that's the prudent thing to do, and get 
fire back in there as soon as possible. It's cheaper; it's more 
ecologically sound whenever we can do that; and we need to use 
a combination of tools to do that.
    Mr. Doolittle. Well, but I'm still not, Madam Chairman, 
I'll be finished here in just a minute. When we're growing four 
to five times annually in the forest what we are harvesting, 
the approach the administration is taking is so minuscule 
compared to the problem. In fact, you've thrown roadblocks, 
frankly, every possible way you could in the harvesting of 
trees, as we saw with the Emergency Salvage Law and how that 
was implemented. And, I'm just amazed how you could--why isn't 
this a catastrophic problem that we're facing, when we're 
growing annually four to five times on these forests what we 
are harvesting? Am I missing something? Aren't we compounding 
almost geometrically the problem?
    Ms. Lavin. Mr. Doolittle, I can't speak to those numbers 
either that you give us in the growth rate because that's not 
my field of responsibility, but let me answer the question that 
we're distinguishing here. The 50 percent acres that we're 
telling you are the 50 percent of the acres that we're talking 
about as being not able to treat are limited to those that we 
know have a problem that needs fuel treatment, not the total 
number of acres that the Forest Service is managing. So when 
the Forest Service speaks of that, we're talking about 50 
percent or 20 million acres. We're talking about those acres 
that need treatment that we know of. The timber you're talking 
about as growing is green and growing timber, and although 
there have been very intense fires--and there is no question 
about that--which have involved green and growing timber, we 
usually count the green and growing as an opportunity, as a 
break in the fuel. So, what we're talking about as needing 
treatment are those acres which include trees that are a 
problem or a biomass that is a source of fuel for us, that it's 
very dry; it's tinder dry, and that's what we're talking about.
    Mr. Doolittle. My point is is that in forests, when they 
get so overloaded with growth, they begin to die. And there you 
have--and it's strewn throughout the green and growing--you've 
got the dead and dying. And I mean the forests in the central 
Sierras are just chock-full of all of this. I doubt that you 
could use prescribed burning in any area of the central Sierra 
forests, and you'd have to commission--we'd put everybody to 
work in the central Sierra and then some if we did the job that 
needed to be done, but all I hear is, ``We're going to do some 
thinning and some prescribed burning.''
    I mean, it sounds like a very, you know, Marquis of 
Queensbury-type rule, and we've got a crisis out there, and 
we're growing four to five times annually the amount of timber 
that we're harvesting. How can we ever hope to catch up? And I 
still haven't heard the answer. I've got a panel of experts 
there, and you're not responding.
    I think the Chairman will back me up on those figures that 
we heard. It is four to five times annually. Let's assume for a 
minute that's true. Tell me how the administration's approach, 
its very careful, methodical thinning, how that's going to 
respond to this problem.
    Ms. Lavin. Mr. Doolittle, I know that in the Forest Service 
that we have an action plan that will involve planning at the 
local level that will get us to 3 million acres of prescribed 
or fuels-treated; we will get to 3 million acres per year of 
acres treated for fuels by the year 2003, and that we're 
recommending that we continue that for the next 20 years. We 
know that by the year 2012 we will have, give or take a year, 
we will have reached a treatment of the 40 million acres that 
we have identified as being the most critical.
    We know that this year we were able to move ahead because 
of weather conditions and also that by having fewer fires to 
suppress--wildfires to suppress--we were able to move ahead and 
treat 1 million acres. We know that this exceeded the amount of 
acres that were lost to wildfire or engaged in wildfire by 
quite a substantial amount. We have today--the current morning 
report said we have, in the Forest Service, had 146,770 acres 
burned, and we know that was in wildfire. We know that we far 
exceeded that in the amount we were treating with prescription.
    Mr. Doolittle. Well, how many million acres have you 
identified that need treatment across the country?
    Ms. Lavin. How many? Your question was how many acres have 
we identified that needed treatment?
    Mr. Doolittle. Yes.
    Ms. Lavin. We have identified approximately--I believe we 
have identified approximately 40 million acres.
    Mr. Doolittle. So you've got 40 million acres that need 
treatment, and you're only doing 3 million a year. And what's 
happening in all those hundreds of millions of acres that 
aren't quite as critical, but that are increasing the timber 
supply year after year after year, in excess of what's taken 
off? Isn't that out there compounding, building up 
geometrically? That's my point. How can 3 million acres 
possibly be doing the job?
    Ms. Lavin. We think that that is an amount that we in the 
Forest Service can handle safely and then can handle 
productively.
    Mr. Doolittle. Well, you may be able to handle it safely 
and productively--I don't mean to be argumentative, but my 
point is these forests are overchoked with growth, and, you 
know, your response isn't meeting the need. Am I the only one 
that sees that, or do you see what I'm talking about?
    Mr. Douglas. Mr. Doolittle, I think that the fact that you 
had three Cabinet-level officials here today speaks for the 
fact that the administration does take this very seriously. 
Secretary Babbitt, in his tenure as Secretary, has been 
speaking out strenuously on these issues because of the urgency 
of the situation.
    We are looking at from now until--in the Interior--from now 
until the year 2001, almost tripling the amount of treatments 
that we will be doing. That is an enormous increase in the 
amount of activity, and it speaks for the urgency which we see.
    When we talk in the Department of the Interior about 55 
million acres needing treatment, that doesn't mean that 55 
million acres need to be treated every year. What that means is 
that's the amount that needs to be treated on the cycle in 
which naturally there would be some kind of fire occurrence. In 
some cases that may be every 3 to 5 years; in other cases it 
might be every 80 to 100 years.
    So all of that rolled together in the Department of the 
Interior means that we should be trying to treat something over 
2 million acres year. We're not there yet. We're trying as hard 
as we can to get there, but we're certainly doing a lot more 
than we did in the past. And I think that we view this as one 
of the most critical land management problems that we have out 
there, and that's why we're here today, to tell you where we 
are and how we hope to be doing better at it.
    Mr. Doolittle. I do respect that and that your numbers are 
increasing, but I don't think they're increasing anywhere near 
the point where they need to be. It's probably an order of 
magnitude or two different than what you have in your reports, 
and I would ask, Madam Chairman, that the Committee's staff 
ought to propound further questions and line these things up. I 
just--it seems to me that there's no way this response can meet 
what the need is.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Doolittle.
    Mr. Peterson.
    Mr. Peterson of Pennsylvania. My first question is, EPA has 
organized a Federal advisory committee under the Federal 
Advisory Committee Act to develop recommended policies to 
address prescribed burning. It's noted that the committee is 
made up of Federal and State officials, with but one or two 
representatives from the private sector. One of the 
representatives is from the Sierra Club, and they certainly 
don't represent private landowners. Why was this committee set 
up with no input from our vast resources of the private sector 
and private landowners?
    Ms. Shaver. Originally, when we set up this group, it was a 
followup to the natural events policy, and it was to primarily 
address the issue on the Federal lands. And there has been much 
more interest in, ``Does this apply to the private lands?'' And 
the way the State and Federal partnership works, we didn't want 
to preempt the States' prerogative to address the fire issue on 
the private lands within their States, so we're trying to 
address the Federal land issue first. We may extend some of 
that to the private lands, but we will not do that without 
involving those stakeholders as well. So we're trying to 
approach this in a piecemeal fashion, and that's why it's 
shaped the way it is.
    Mr. Peterson of Pennsylvania. Well, I guess I don't 
understand your answer when you look at the size and scope of 
this problem. I think you're saying that you're not dealing 
with private land, but private landowners who manage huge 
forests have a lot of information that Government could use. 
And when you only use State and Federal employees, you're 
really missing out on a huge resource of people who do this for 
a living--people who make a profit at it, people who do just as 
much research and care just as much about their future and 
probably do more about it than public land does, from history.
    And I guess I just--as someone who's been in State 
Government for 19 years and now in the Federal Government, and 
in local government 8 years before that--I mean, every time we 
look for inno-

vative answers we bring in the private sector, who are 
professionals, too, and don't have any stake but can give a lot 
of advice. And to set up an advisory panel of just public 
people, I think, is very short-sighted.
    Ms. Shaver. And I appreciate that, and that was not our 
intent. Like I said, this particular advisory committee that 
was set up was to address the implementation issues for ozone, 
particulate matter and regional haze, and when it was initially 
set up--it's already up to 85 members--we couldn't get all the 
stakeholders for the ag-burning issues as well as the private 
forest issues, and so we would like to work with those 
stakeholders separately. So that's one of the reasons we had 
broken it up the way we have. It was just the sheer numbers of 
it.
    We will be running any policy that this sub-group develops 
or recommends by the larger subcommittee, but, certainly, we do 
intend to seek broader stakeholder involvement from the private 
sector before the policy would be extended to them.
    Mr. Peterson of Pennsylvania. Well, I would hope; I would 
hope that is the case, but I think you're passing up a huge 
resource--even academia; it doesn't appear academia was 
included.
    The next question is--I think Congressman Doolittle just 
expanded on the scope and immensity of this problem, and I was 
on the western tour as an easterner a few weeks ago and saw the 
amount of the forest that was burned--the 100,000 acres. It was 
pretty awesome, and then when you saw the huge amount of the 
forests we flew over in choppers, where one-third of the forest 
is dying, and I was told another third of it probably will die, 
and the fuel load that's there, and the problem and the 
immensity.
    I guess I would suggest to all of you, your budget 
requests, in my view, do not represent even asking for what is 
needed to begin to address this problem. And you know, from my 
19 years in State government, I always judged departments on 
their budget requests, what they asked for, if they really were 
serious about solving a problem, and it's my view that your 
budget requests are very inadequate to address this problem, 
and you're giving us lip service.
    Mr. Douglas. Sir, I respectfully disagree. I believe that 
the budget we've submitted to the Congress in 1998 and what 
we're proposing internally in the administration for future 
years now is pushing the envelope in terms of our ability to 
actually use those dollars effectively. We're pushing 
aggressively, and as you know dollars are not easy to come by, 
both within the Administration side and our ability to get 
dollars into the President's budget, and then the 
appropriations committees, in living within the ceilings that 
they are living within, have made them available to us.
    I think that dollars are not really our problem at this 
point. We do have some other resource constraints. We need, 
badly, more skilled people--ecologists, fire fighters, 
planners, economists, and so on, to do a lot of the analyses we 
need. We need to get, basically, our capabilities up.
    I think the dollars, from everything that we've seen, and 
we've been working together between the two departments very 
closely on this, are coming along. But we can't turn on a dime, 
you know, and I think that we need to be careful about pumping 
too much dollars in and seeing those not used as wisely as they 
ought to be. So, I'm very optimistic on the dollar side right 
now.
    Mr. Peterson of Pennsylvania. I'll yield to Congressman 
Doolittle.
    Mr. Doolittle. You know, let me just say to you that that 
testimony flatly contradicts what we heard in Sonora, where we 
heard the Forest Service officials testify that money has been 
sharply reduced for the timber sale program, for example, and 
therefore the sales cannot be prepared as they used to be and 
that is resulting in less timber being cut.
    So, how do you--I realize you're with the Interior 
Department, not the Forest Service, but we see this going on 
fairly widespread in the central Sierras and I cannot, you 
know, hearing that the budgets are being increased--they're not 
being increased; they're being cut back. Now there's always 
plenty of money once we have the forest fire. We'll spend 
whatever it takes to fight it; that's great. But, boy, don't 
get the timber sale program going because that's looked upon as 
an undesirable program, and we've got to cut back to save money 
on that.
    Mr. Douglas. Let me let the Forest Service answer that 
specific question, but I want to clarify. I was referring to 
dollars that we're requesting for fuels management through the 
fire program, not other land management dollars that may, in 
one way or another, relate to this particular program. That was 
the nature of my answer.
    Mr. Doolittle. OK.
    Mr. Douglas. I'll let the Forest Service talk about the 
larger issue.
    Mr. Doolittle. Well, I'm on Mr. Peterson's time.
    Mr. Peterson of Pennsylvania. Go ahead; you can respond.
    Ms. Lavin. Mr. Peterson, Mr. Doolittle, I would like to say 
that I represent the full budget of the Forest Service, but I 
do not. I represent a major portion of that budget, but that 
portion is in fire, and I would agree with Jim Douglas that in 
fire it is not a question of adding additional dollars when 
we're looking at the prescribed fire program.
    We are very concerned that we do not have enough people and 
we do not have the expertise, so we're looking at other ways in 
which we can increase that expertise. We're working with the 
State of Florida, which is going to testify later. We're 
working with the State of Florida to work on having improved 
training for both the State and the Federal people who will be 
conducting prescribed fire.
    Remember that we always look at the fact that all of the 
prescribed fire program is for sustainability of our forests, 
and that's the only reason that we look at the fire program or 
work toward that. And it does involve timber, and it does 
involve timber management.
    Mr. Peterson of Pennsylvania. I agree with the Congressman 
from California, though, that if we're going to deal with the 
forests appropriately, it's not just fighting fires and 
prescribed burns. It's also managing that resource and making 
sure that land that has three-times the stems that it should 
have is adequately addressed. I mean, there's a whole lot to 
this, but I know we have a huge anti-cut-down-a-tree group that 
thinks cutting down a tree is some sinful thing and that we 
shouldn't do that; and they're part of the problem, but we all 
have to deal with them.
    Mrs. Chenoweth. Thank you, gentlemen.
    I want to say that we have two votes up; one is on House 
Resolution 255, ordering the previous question, and then we'll 
have a vote following that on the rule. And after that we will 
return, and I will ask my round of questions then, so I need to 
have this panel of witnesses remain. But I will say that our 
Committee will be temporarily recessed for 30 minutes, and that 
will give you a chance to get something to eat. Thank you.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order. I thank 
the panel for waiting. Like I say, this does take a fair amount 
of patience to work in this body and to become a part of it 
through your willingness to be witnesses, all of you, and I 
thank you very much for your patience.
    I do want to say that one of the reasons that the Chairman 
called this hearing was our--and I want to direct this 
particular statement and question to Mrs. Shaver. One of the 
reasons that the Chairman called this hearing was because, 
while we have heard Ms. Browner testify that agricultural 
burning--and we heard her testify to this in the Ag. 
Committee--agricultural burning would be exempt from the 
standards, as well as--now we're hearing today--that prescribed 
burns by the Forest Service would be exempt.
    And while that would normally, one would think, give us a 
fair amount of comfort, our concern is that it puts a lot more 
pressure on our point-source emitters, such as our utilities 
and private industry. And that's why we're so concerned, 
because of the--in fact, this weekend I was in Denver giving a 
speech, and they are claiming that they are impacted by the 
smoke and smog that is coming in from southern California.
    And so it looks like, certainly in areas up in the 
Northwest where I come from that need to be protected because 
of their wilderness qualities and because of the national parks 
up there, it looks like it's going to severely impact our 
western part of the country.
    And I have some photographs here that I wanted to enter 
into the record, and I do want to say that for record, as 
Chairman, as I enter these photographs, that I will attest to 
their accuracy and to what I testify; I will attest to that 
under the penalty of perjury.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. The first photograph--these photographs 
have to do with the prescribed fire that was done in the fall 
of 1996 by the Department of the Interior. This was the Coggins 
fire in the Whiskeytown Recreation Area near Redding, 
California.
    Are you familiar with that fire, Mr. Douglas?
    Mr. Douglas. Only in very, very general terms. I know 
they've been doing some treatments in the park there and have a 
series of burns that they have done and will be doing, but 
that's as much as I know at this point of the specifics.
    Mrs. Chenoweth. Well, the photos were taken on September 19 
of this year, and this is the first photograph, and I think you 
have a copy of the photos there.
    Mr. Douglas. Right.
    Mrs. Chenoweth. Mrs. Cubin, do you have a copy of the 
photos?
    Mrs. Cubin. No, Madam Chairman.
    Mrs. Chenoweth. OK.
    Photo No. 1 shows the edge of the fire area and the 
adjacent underburned area, while photograph number 2 shows a 
portion of the fire area, and it does not appear that any fuels 
were removed before the prescribed burn. And these photos 
clearly show that there's a lot of small trees growing 
underneath the larger trees, creating ladder fuels. These 
photos also show that the fire killed many of the larger trees, 
as you can see in photograph No. 3 and photograph No. 4.
    What was the prescription for this fire?
    Mr. Douglas. Ma'am, I can't tell you precisely the 
prescription at this point. I'm not familiar with that. I'd be 
happy to provide that for the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Douglas. I will tell you that it's my understanding 
that this fire was conducted within the prescription--it did 
not go out of prescription--and the purpose of the fire was to 
achieve ecological benefits. And, of course, what happens when 
you have fire is that some trees are killed, some trees are 
damaged. That's part of the natural events within a healthy 
forest. And so it's not surprising to us that some trees would 
die.
    It looks to me--and we can get, certainly, more details for 
you on this particular fire--it looks to me like it burned 
hotter in some areas than in other areas, and perhaps there 
were some localized hot spots that killed a few more trees in 
one spot than it would have in another area. And, again, that's 
what would have happened naturally, that fires do not burn 
uniformly across the landscape, but they spot, they burn 
intensely, then they die back.
    And so we would expect to see this as a natural kind of 
occurrence. If the fire had been started, say, by lightning 
instead of by management, you'd see the same kind of pattern of 
just a variety of effects throughout the forest. You know, some 
big trees die; some big trees don't die. And that's the point 
of trying to use fire in a place like this; it is to re-create 
the kinds of natural conditions that occurred for so many 
hundreds of years in that type of forest.
    Mrs. Chenoweth. Well, this is my major concern because we 
do have a ladder fuel situation here, and it would create a 
tremendous potential for an explosive fire which really messes 
up our air quality standards. In fact, just September 25 of 
last week, we saw another eruption in this same area of the 
fire, which created an awful lot of smoke and haze and extended 
over a long, very wide area.
    So, that, combined with the fact that we may be creating 
more fuel that is more explosive, while still trying to contain 
our ambient air quality emittents, is creating a conflict that 
I worry about greatly in the Northwest.
    I also want to show--is there a graph there? Yes, air 
quality graph.
    Mr. Douglas. Madam Chairman, if it would be all right with 
you, I think it would be helpful for us to provide some further 
information on this particular fire for the record----
    Mrs. Chenoweth. All right.
    Mr. Douglas. [continuing] and perhaps we can provide some 
information to interpret each one of these pictures and help 
the Committee understand what the park's objective was.
    Mrs. Chenoweth. All right. I appreciate that, and I'll look 
forward to it.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. For Mrs. Shaver--as you can see, the little 
red dots on that map indicate the national parks and the 
wilderness areas where these class I standards will likely be 
imposed.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. The next graph shows--Bill, can you show 
her the next graph? The next graph shows the 100-mile radius of 
control of the air quality out from those national parks, 
wilderness areas, and which may be imposed in our class I 
areas.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And then the next graph then shows the 250-
mile radius that is also being talked about for imposition out 
from these areas, and, as you can see, that covers most of the 
United States.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Now the 100-mile radius really impacts the 
Northwest and has a pretty serious impact across the Nation, 
but the 250-mile radius for a class I impact would be most of 
the Nation. So, we're seriously concerned about the impact of 
prescribed fire, agricultural fires, and point source 
emittents.
    Mrs. Shaver, one of my concerns, too, is our elderly people 
who, a lot of times, in the summer time, turn off their air 
conditioners because they can't afford to pay for the 
additional utility bills. And we're almost defeating ourselves 
when we realize that a lot of our older people die in the 
extreme heat. And so while I think it's laudatory that we're 
trying to help the asthmatics and, of course, the younger 
children with respiratory afflictions, we tend to ignore our 
elderly, I think, with this program.
    And the reason that we see the combination here in this 
hearing of the natural resources, plus your proposed rules, is 
the fact that we are very concerned about the point source 
emittents that normally would have come in under your 
standards, but with prescribed fires or runaway fuel fires, 
which can happen with the fuel load that you've heard Mr. 
Doolittle and various other people talk about, our forests are 
at a point now where it's not easy to control those fires at 
all, and so that is our major concern.
    And with that, I'd like to just give you the time necessary 
to address that.
    Ms. Shaver. Well, I guess there are two issues. One, of 
course, is the regional haze rule, which addresses primarily 
the class I areas, and as a part of that particular rule the 
State and locals would be able to establish a baseline which 
would incorporate the natural role of fire. And then, 
certainly, in terms of making progress on improving visibility 
over the long time--say 10 to 15 years--then they would work 
from the baseline, which incorporates the role of fire.
    Certainly we are concerned about the health of our 
children, as well as the elderly, and certainly the health of 
everyone, but particularly those sensitive populations. That's 
why we are working with the States as part of this policy to do 
smoke management programs which mitigate the public health 
impact of these prescribed burns, and we think with adequate 
planning and proper operation and implementation of these 
plans, for the most part you will not see significant air 
quality violations under those conditions.
    Where we do have the data now, we have not seen that, but, 
certainly, we will be placing our monitors in the high 
population areas and, in fact, working in those areas to make 
sure that we meet the air quality standards as best we can, 
which is, of course, the purpose of the policies that we are 
developing.
    Mrs. Chenoweth. Could you give us a little more information 
on your smoke management policy and program?
    Ms. Shaver. Well, a lot of the States already have very 
good smoke management programs, and I think you'll hear from 
Mr. Peterson a little bit later about the smoke management 
program that they have in Florida, where they burn a 
significant number of acres each year and where they have not 
had violations of the particulate matter standard. There are 
other States, like Oregon, which have a good smoke management 
program as well.
    And so these programs account for the meteorological 
conditions. There's a mechanism for authorization of the burns 
and certainly provisions for training of this kind for the fire 
managers. So, we're looking at those smoke management programs 
being implemented in advance of the burns, and certainly in 
cooperation with the land management planning, as well as the 
burn plans that occur.
    So, I think that with the adequate planning up front, and 
the organization there and the cooperation, that we will be 
able to meet the air quality standards on a consistent basis.
    In terms of where we might not be able to, or where the 
meteorological conditions change and a fire gets out of 
control, you do have a violation of the air quality standard. 
We certainly don't want to penalize the point sources in that 
area for that condition, and that will be another aspect of the 
policy as well. Whether it's a part of the designation or non-
designation process, if you will, that will certainly be an 
aspect of it.
    Mrs. Chenoweth. So then there will not be a cumulative 
effect that will be imposed on the point source emitters?
    Ms. Shaver. We will not be penalizing the point source 
emitters for something that happens under the prescribed burn 
policy. That's correct.
    Mrs. Chenoweth. And that would also be true of agricultural 
burning, I take it, based on Ms. Browner's testimony in front 
of the Ag. Committee.
    Ms. Shaver. Right. We are not targeting agricultural 
sources. We are working with USDA's agricultural air quality 
task force to address the ag-burning issue, and that will be 
taken up with that committee the end of October. That would be 
the first time that's been discussed with that group, that's 
basically made up of agricultural stakeholders, and we are 
working with them on the ag-burning aspect of the policy.
    Mrs. Chenoweth. Well, while you do offer us some degree of 
comfort here, nevertheless, there's a basic, philosophical 
concern that I have, and that is that the government feels that 
their activities may be worthy of exemption, while private 
industries' activities may not be, and I think we're moving 
into some dangerous territory here. And we've taken the 
blinders off of justice, perhaps, and I'm very concerned about 
that, but I do appreciate your testimony.
    Ms. Shaver. Thank you.
    Mrs. Chenoweth. I do want to say that I've received a 
letter from the mayor of a little town in Idaho--Salmon, 
Idaho--and I, without objection, will enter that into the 
record.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And so I'd like to now turn the mike over 
to Mrs. Cubin, from Wyoming.
    Mrs. Cubin. Thank you, Madam Chairman. To avoid any 
redundancy, since I've just very recently arrived, I will, if 
it's all right, submit questions in writing. Thank you.
    Mrs. Chenoweth. One more question that I wanted to ask was 
about wood-burning stoves. Will that be exempted at all? 
Because that can create a national cumulative effect, or a 
regional cumulative effect.
    Ms. Shaver. We have some wood-burning stove policies. I'm 
not familiar with the specifics of those, and, actually, some 
of those are occurring at the local levels; there are local 
policies or regulations concerning those. I would be happy to 
answer the question for the record regarding that, but the wood 
stove policy would not be covered by these policies we've been 
talking about today.
    Mrs. Chenoweth. OK; forest fires are allowed, but wood 
stoves are not.
    Ms. Shaver. No, I did not mean to imply that. I'm sorry. I 
just said that the policies that we are talking about today 
would not cover wood stoves.
    Mrs. Chenoweth. OK, let me--perhaps I didn't hear it 
correctly. Let me ask it again. With regards to the imposition 
of standards for emittents from smoke, forest fires are allowed 
and they would be exempted, but wood stoves would not be 
exempted, right?--although it's basically the same emittent.
    Ms. Shaver. No ma'am; I did not mean to imply that.
    Mrs. Chenoweth. Imply what?
    Ms. Shaver. That forest fires were exempted and that wood 
stoves were not.
    Mrs. Chenoweth. Prescribed forest fires are exempted.
    Ms. Shaver. No, ma'am.
    Mrs. Chenoweth. Well----
    Ms. Shaver. Wildfires that are not part of a prescribed 
burn are exempted under the natural events policy. Actually, 
they're not exempted. We're just saying that where you have 
wildfires that are burning out of control, they're covered by 
our natural events policies. Any violations of the standards 
that occur because of those are not used in determination of 
whether or not an area is designated ``non-attainment.''
    OK, under the prescribed burning policy, we're saying that 
you have to be in accordance with your plan, your smoke 
programs, and this type of thing, and we don't anticipate that 
there would be air quality violations because of a prescribed 
burn. In the event that there was, or something like that, then 
we would address that situation. We would not penalize that 
area in terms of non-attainment designation, where a fire got 
out of prescription, or something like that, as long as you 
were following the prescription as it was designed.
    Mrs. Chenoweth. So what we're talking about, then, is the 
designation of an area rather than----
    Ms. Shaver. That's correct.
    Mrs. Chenoweth. All right. Within that area, if a 
prescribed fire should occur and it creates an air quality 
situation where it violates the standards, then everything in 
that region would have to shut down because of the prescribed 
burn or the natural wildifire.
    Ms. Shaver. Not if you're not designated non-attainment. 
No, I don't think that's the case. You would not require those 
sources to be shut down.
    Mrs. Chenoweth. All right. I will--I don't think we're 
connecting on the same frequency here at all, but I----
    Ms. Shaver. I understand, and I apologize for that. I'd be 
happy to try to answer in writing or try again now.
    Mrs. Chenoweth. OK. I think through most of this hearing we 
understood that prescribed burns conducted by the Secretary of 
Interior or Secretary of Agriculture would be exempt; that 
would be permissible. And as I heard in the Ag. Committee the 
other day, those fires--prescribed fires for agricultural 
fields--would also be exempt--or allowed. Are we having a 
problem with the word ``exempt?'' Is there something I'm not 
seeing here?
    Ms. Shaver. Well, exempt is not a word, I guess, that I 
would choose to say in those things. I guess what I would say 
is, where a State has a smoke management program in place and 
where the land management agencies have done their land 
management planning, where they have done their burn plans, 
they've gone through the NEPA process, and where those are in 
place and are being followed, then the agency would be--in case 
there is a violation under those circumstances where those 
plans are being implemented--then we would not count those data 
toward non-attainment designations.
    Now if a State did not have a smoke management program in 
place, if they did not follow the burn plans, or cases like 
those, then we would still have our ability to designate those 
areas as non-attainment. So, I would say it's not a free ticket 
to strike matches. There needs to be a lot of planning done up 
front. There needs to be a lot of evaluation of the need for 
that, how to do that, and to make sure it's done in compliance 
with the planning that we're talking about.
    So that's why I'm concerned about the use of the word 
``exemption.''
    Mrs. Chenoweth. So we are--so EPA will be asking the land 
management agencies to perform an EIS on their smoke management 
program, on their prescribed burn programs?
    Ms. Shaver. I may let them answer that.
    Mrs. Chenoweth. Mr. Douglas.
    Mr. Douglas. Yes, what this is predicated on is going back 
to something we talked about before the break, and that is 
everything needs--all of our actions need to be based on land 
management plans. The planning process is a multi-tiered 
process. It starts at the most general level. A strategic level 
would be a forest or a national park or a BLM area and then 
gets progressively finer as we're talking about smaller and 
smaller pieces of ground, and maybe particular activities, 
types of functions.
    That planning process is subject to the National 
Environmental Policy Act. Whether or not an EIS, itself, is 
done, it is subject to NEPA and an environmental compliance is 
done. An environmental compliance involves public participation 
and evaluation of environmental consequences, of different 
alternatives, and a finding of whether or not there's 
significant environmental impact, and so on.
    So, we don't necessarily do an EIS in every case, but we 
follow the National Environmental Policy Act in ensuring that 
the environmental consequences are identified, of the various 
alternatives, and that the one selected is appropriate. That 
underlies, then, our--in the case--if we're bringing this 
specifically back to fire--underlies our management decision to 
use fire in certain circumstances: ``Yes, that's appropriate. 
This is how we're going to manage that fire.'' We get into the 
prescription that we're going to use, weather conditions, fuel 
conditions, and that sort of thing.
    Those are all of the types of things that we're committed 
to is that we will go through planning processes and take every 
step we can to minimize our emissions--burning techniques, 
times of year, meteorological conditions, and that sort of 
thing, in order to keep from putting more than absolutely 
necessary into the air.
    Mrs. Chenoweth. Mr. Douglas, I think you're right, because 
it is a major Federal action. And let me ask you, have you done 
an EA or an EIS under NEPA on the other prescribed burns?
    Mr. Douglas. Absolutely. There's always environmental 
compliance. Environmental compliance doesn't mean that there's 
necessarily an EIS done, but the NEPA is followed and the 
appropriate findings are made. In major cases, it results in an 
EIS. In smaller actions, it's an environmental assessment, but 
environmental compliance is done in each and every case.
    Mrs. Chenoweth. Thank you.
    Ms. Shaver, is the EPA prepared to do an environmental 
impact statement, especially if you impose the 250-mile radius 
criteria on all of these areas? As you can see from the 
overlays there, that decision is a major Federal action 
requiring an EIS. Has EPA, or is EPA preparing to do an 
environmental impact statement on this, on the new standards?
    Ms. Shaver. On the new standards? I'm not----
    Mrs. Chenoweth. On the environmental impact of the new 
standards.
    Ms. Shaver. I'm not sure I can answer that today.
    Mrs. Chenoweth. I think that the courts have said, any time 
there's a major Federal action by an agency that there must be 
an EIS, so could you let us know?
    Ms. Shaver. Sure.
    Mrs. Chenoweth. OK.
    Mrs. Cubin, do you have any other questions?
    All right, I want to thank this panel very much for your 
patience and for your time. I, again, apologize for all the 
votes that have taken us away. This is no way to run a railroad 
sometimes, I think, but it happens, and it's the best system in 
the world. But, thank you very, very much. And I will be 
submitting additional questions to you, and the record will 
remain open for about 3 weeks. Thank you very much.
    I want to call the next panel of witnesses up. Mr. Earl 
Peterson, Florida State Forester, chairman of the National 
Association of State Foresters Fire Committee in Tallahassee, 
Florida; Mr. William Dennison, Plumas County Supervisor, Board 
of Supervisors, Quincy, California; Mr. Robert Mutch, Missoula, 
Montana, and Dr. Robert Pearson, Radian International LLC in 
Denver, Colorado.
    Gentlemen, thank you very much for your patience, but Mrs. 
Cubin and I will make up the difference. These are the days 
toward the end of the year when things get a little wild out 
there, but you are contributing to a very, very, very important 
record, and I thank you very much for your expert testimony.
    So before we get going, I wonder if you wouldn't mind 
standing with me and taking the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. We'll begin with Mr. Earl Peterson. Mr. 
Peterson.

 STATEMENT OF EARL PETERSON, FLORIDA STATE FORESTER, CHAIRMAN, 
    NATIONAL ASSOCIATION OF STATE FORESTERS FIRE COMMITTEE, 
                      TALLAHASSEE, FLORIDA

    Mr. Earl Peterson. Thank you, Madam Chairman. I appreciate 
the opportunity to appear before the Committee. I look forward 
to sharing with you some observations about the use of fire as 
a management tool, both in Florida and nationally.
    As the director of the Florida Division of Forestry, I'm 
involved--my agency's involved--with the management of over 1 
million acres of land in Florida, purchased by the Florida 
taxpayers to ensure that some of the unique ecology enjoyed by 
the citizens and the millions of visitors who come annually, 
each year, will be there for generations to come.
    Without hesitation, I can say that one of the primary 
contributors to the current State of Florida's wildlands has 
been fire. In Florida, we call the use of fire as a management 
tool ``prescribed fire.'' And like a prescription issued by 
your personal physician, the medicine is aimed at curing a 
specific problem, while at the same time it can and often does 
have side effects. We must work to minimize those as they 
affect the other parts of the body. The trick is to make sure 
that these side effects are not worse than the cure. So too, 
with prescribed fire.
    Fire's role on State and private lands in Florida has been 
that of the sculptor, molding and shaping the system over many 
thousands of years. As a result, many of the flora and fauna 
have come to depend on periodic fire for their existence. If 
this element is excluded, the result will be a system that is 
far less diverse in both plants and animals. In addition to 
this, many of the timber species that the forest industry 
depends upon shall disappear and will not survive.
    Many other forest and grassland ecosystems also evolved 
with fire, including much of the southeastern pine forest, as 
well as many coniferous forests in the western United States. 
Recent research has also indicated a larger role for fire in 
regenerating hardwood species, such as oak. Each type of forest 
evolved with dif-

ferent types and intensities of fire, so prescriptions must be 
carefully matched to forest type. In some instances, prescribed 
fire would not be the preferred tool for management on many of 
these stands.
    Floridians place such a high importance on prescribed fire, 
that in 1990, the legislature passed statute 590.026, the 
Florida Prescribed Fire Act; you have copies in your packet. 
The law provides civil liability protection for responsible 
prescribed burners. You also have an article in your packet 
from the Journal of Forestry, May 1992, that explains this act. 
This means that as long as the burners adhere to the law and 
associated administrative code, they cannot be found civilly 
liable for the potential negative effects of their prescribed 
burns, including smoke.
    The South's fire heritage has allowed it to lead the Nation 
in promoting and practicing the art of agricultural and 
prescribed burning, and Florida leads the South, as well as the 
Nation, in prescribed fire activities. In 1996, Florida burned 
2.2 million acres, most of it under canopy, and issued over 
118,000 permits to reach this objective.
    We're also cognizant of the fact that we're graced with 
both a favorable climate and topography to accomplish the 
mammoth amount of prescribed burning that is necessary to keep 
up with the rapid vegetative growth on our wildlands. In areas 
where mountainous terrain tends to trap smoke from wildfires 
for days, weeks, and months at a time, the amount of burning 
done in Florida could not be accomplished there.
    Coupled with this, the policy of fire exclusion over the 
past 75 years has resulted in an enormous fuel accumulation 
from downed timber, insect, and disease attack. The future of 
fire in these areas seems to be almost an impossible task. 
Because of this we have, curiously enough, tended to place the 
responsibility back in the hands of fire to solve these 
problems. Once the fuel loads get to the point where we can no 
longer control the wildfires they start, the system is swept 
with catastrophic fires that can leave the land scarred for 
centuries.
    In short, we have two choices in managing our wildlands: 
exclude fire until the system is overloaded and disaster 
strikes, or manage both wildfire and prescribed fire in a 
balanced system. Floridians have chosen the latter solution. In 
addition to the prescribed fire act of 1990, almost all of our 
67 counties have passed resolutions or ordinances in support of 
prescribed fire. In March of this year, Governor Chiles and the 
Florida Cabinet named the week of March 11 Prescribed Fire 
Awareness Week.
    There are mechanical and chemical methods that can 
duplicate some of the positive effects of prescribed fire. 
Reduction of fuel load to reduce the potential negative effects 
of catastrophic wildfires can be accomplished to some measure 
by thinning the overstocked forests. This process is very 
labor-intensive and in some instances can be very costly, and 
there isn't a market, always, for the material which is to be 
removed, in the way of poles and firewood. However, such 
methods may be necessary where prescribed fire has not been 
used as a regular management tool, and fuel loads are too high 
to allow for immediate reduction by fire.
    The negative side effect of prescribed fire is the impact 
resulting from smoke. You are aware, as you've heard here 
today, of EPA's plan to revise the National Ambient Air Quality 
Standards and the visibility standard. These changes to the 
standard could have a significant impact on the use of 
prescribed fire, depending how the EPA intends to treat the 
contributions made by prescribed fire.
    We believe the intent of the Federal Clean Air Act is to 
prevent the deterioration of air quality from human causes. 
Since fire is part of the natural system, as pointed out 
earlier, and necessary for the survival of our wildlands, we 
believe that the resulting smoke should be considered natural 
and excluded from consideration if these is an exceedance of 
the standard.
    Prescribed burn practitioners are trained to reduce the 
impacts of the smoke from prescribed burning to a minimum. This 
will not eliminate the possibility of exceedance of the air 
quality standards or the visibility standard, but we believe 
the number of potential problems will be held to a very 
minimum. The reason for this is simple. Prescribed 
practitioners understand that the future of fire depends on the 
good will of the general public and their responsible use of 
this important tool.
    It is important to note that in some of the areas of the 
country, there is a limited public tolerance of smoke from 
prescribed fires, and this has led to efforts to limit or end 
the practice. Many of these decisions will be in the hands of 
State air quality agencies, along with other State agencies.
    NASF and its member State Foresters are working and will 
continue to work with State and Federal air quality officials 
to craft regulations that will allow this ecologically 
important management tool to continue.
    Thank you very much.
    [The prepared statement of Mr. Earl Peterson may be found 
at end of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Peterson.
    And we'd like to hear now from Mr. William Dennison, our 
Plumas County Supervisor. Mr. Dennison.

STATEMENT OF WILLIAM DENNISON, PLUMAS COUNTY SUPERVISOR, BOARD 
               OF SUPERVISORS, QUINCY, CALIFORNIA

    Mr. Dennison. Thank you, Madam Chairman, and staff. I 
appreciate your tenacity to stick with this today. I've 
submitted a written statement for the record, if you would, 
please.
    My goal is to convey to you both support and concerns for 
the utilization of prescribed burning on national forests and 
national parks. Our support is based on the belief that 
prescribed burning must be reintroduced into the national 
forests if we're to attempt to restore their health. You've 
heard a lot about that today.
    The concern is that prescribed burning will be utilized in 
northern California without first removing heavy fuels. The 
photos which you showed earlier today speak to that concern 
that we have. My written testimony contains statements about 
the amounts of material that must be removed prior to 
introducing fire, in our neck of the woods, at least.
    Next, we find it difficult to believe that the new PM2.5 
requirements under the National Ambient Air Quality Standards 
can be met if prescriptive burning is used on as many areas as 
necessary to make a difference in our forest health, 
particularly without emphasis on mechanical removal of fuels 
prior to burning. We've had to curtail open burning in parts of 
Plumas County to even meet the PM10 standard, and without 
significant amounts of prescriptive fires to date.
    If National Ambient Air Quality Standards are broken by 
prescriptive fire, based on recent announcements by air 
management districts and now the proposed EPA regional haze 
requirements, there is good reason to believe that it will 
businesses and individuals who will suffer financially when the 
standards are violated. We have statements from our air 
management district that use of wood stoves, in fact, in our 
area, already are under jeopardy.
    In addition Madam Chair, I have included testimony in my 
written statement based on the July 30th Huffer fire on the 
Lassen Volcanic National Park that sheds uncertainty on the 
Department of Interior's ability to effectively control fires 
through their current management of prescriptive, natural 
fires. We've listed six pollution and financial issues about 
the Huffer fire that should be addressed through a review of 
that policy.
    A recent quote that covers our point most succinctly was 
made by Neil Sampson, president of Sampson Group, in a recent 
magazine article in which he said, ``Fire introduction is 
supported by a broad array of scientists, foresters, and 
conservationists . . . but it's not as easy as it sounds, and 
to simply propose lighting fires on most western forests is 
irresponsible and destructive.''
    We're concerned that there are some within departments and 
agencies who will peddle the medicine without revealing the 
costs. I'm talking about the real costs of the fire 
prescriptions if they're administered in a way that will 
maximize the goal of obtaining healthy forests that will give 
the less prone wildfire effect, while assuring that air 
pollution and escaped prescriptive fires do not impact our 
citizens, as you suggested they might.
    We are on the right track with the reintroduction of fire, 
but let's recognize and resolve at least five conditions that 
have been posed by the Quincy Library Group, which prevent the 
immediate use of prescribed fire at large enough scale to 
address the hazard areas, at least where I live.
    First, the QLG says the current high fuel loads make it too 
dangerous to use prescribed fire in any but the most favorable 
conditions, and even then it takes only a small weather change 
to put those out of limits. To be within acceptable limits, we 
must first reduce fuel loads.
    Second, they say the continually reduced availability of 
expert fire managers makes it more difficult than ever to 
manage prescribed fire safely and effectively.
    Third, the historic rate of prescribed fire usage is about 
10 percent of the treatment required, and that has been done on 
the easiest terrain and the least hazardous fuel areas.
    Fourth, major components of the current fuel load are 
unnaturally thick stands of small fire ladder trees--that you 
talked about--that carry ground fires up into the crowns and 
kill the large trees that would otherwise be nearly fireproof. 
The lower material, again, must be removed.
    Fifth, the QLG says, significant increase in the use of 
prescribed fire comes into direct conflict with the air quality 
standards. In the long run, this conflict must be addressed in 
a way that provides those benefits and processes that only fire 
can supply.
    Meanwhile, the Quincy Library Group has said that it will 
take at least 10 decades--I'm sorry--at least a decade of 
thinning and other fuel treatment by non-fire means to make it 
feasible to employ prescribed fire at whatever level is found 
to be necessary for sustainable, long-term health.
    In summary, we share the urgency to reintroduce fire into 
our forests. At the same time, there are problems with 
prescribed fires in both national forests and national parks, 
and conflicts with NAAQS. We respectfully submit that the 
issues we've emphasized are not new, but they are important and 
worthy of consideration before the Departments of Interior and 
Agriculture launch into the prescriptive fire program in 
northern California.
    As noted by Congressman Peterson, the private sector needs 
to be involved in this process as well. We also emphasize that 
we do not wish this testimony to in any way cause a stumbling 
block. We would rather have this as an open door to relate 
problems, and in which we can work together toward a reasonable 
use of prescriptive fires. And if I could answer any questions 
later, I'd certainly be pleased to do so. Thank you.
    [The prepared statement of Mr. Dennison may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Dennison.
    And the Chair now recognizes Mr. Mutch.

          STATEMENT OF ROBERT MUTCH, MISSOULA, MONTANA

    Mr. Mutch. Thank you, Madam Chairman. I'm very glad to have 
the opportunity today to meet with this Committee, and 
especially to talk about the critical importance of combining 
silvicultural prescriptions, thinning, timber harvest, and fire 
prescriptions to restore the health to the forested ecosystems 
of the western United Sates.
    I base my observations today on 38 years in the Forest 
Service, 17 years at the fire laboratory just over the mountain 
from Idaho in Missoula, and 21 years in operational fire 
management.
    A recent survey conducted by Forest Service research has 
indicated that 5 million acres are burned annually in the 
United States by Federal, State and private prescribed burners. 
Three-and-a-half million of this 5 million acres, or over 70 
percent, occur in Mr. Peterson's southeastern part of the 
country.
    When one considers the area managed by just the Federal 
agencies, an annual nationwide prescribed fire program of just 
5 million acres for all burners is woefully inadequate. This is 
especially true in the West, where the prescribed fire programs 
of Federal agencies have been extremely modest in the past.
    Let's cut to the chase by referring to this first bar 
graph. This graph depicting wildfire acreage burned in the 11 
western States managed by Federal agencies between the years 
1916 and 1996 should be of concern to everyone in this room, 
and it should be of concern to the American taxpayer. Look at 
this almost perfect U-shaped curve. For decades, Federal 
agencies went before Congress and said, ``Give us more money 
for bigger and better fire departments, and we will continue to 
reduce the area burned by wildfires.''
    That strategy worked very well for several decades until we 
hit the point of diminishing returns in the middle of the 
1980's, when widespread drought, insect epidemics, and our 
natural fuel accumulations reached a critcal point. And we can 
see an escalating problem in wildfires at the latter part of 
this century equal to what was occurring during the early part 
of the century, 1900 to 1919.
    The next graph shows very clearly what a forest looks like 
after being affected by what some have called the grand 
ecological experiment, the attempted exclusion of fire from 
fire-adapted ecosystems.
    Here is the same camera point on the Bitteroot National 
Forest between 1909 and 1989 and photographed periodically over 
those many years. One can easily see, in that upper left-hand 
photograph, the low intensity surface fires that would have 
characterized that kind of open forest with one-foot flame 
lengths, historically.
    Compare that upper left-hand photo with the photo in the 
lower right-hand corner, taken in l989, with dense understory 
thickets of Douglas Fir, the ladder fuels that you have talked 
about earlier, and are contributing to crown fires today with 
flame lengths of over 100 feet.
    If you had a home in the Bitteroot Valley, would you want 
it in that site pictured in the upper left-hand corner or in 
the lower right-hand corner? Or if you had a daughter or a son 
fighting fires in the West, would you want them fighting fires 
in the upper left-hand photograph, with open, grown, low-
intensity fire conditions, or would you want them fighting fire 
in the photograph illustrating today's sorry state of affairs?
    The next poster will show you current and projected 
prescribed fire programs of the four Federal agencies. The 
agencies know that an expanded burning program is necessary, 
and we've heard that testimony today. And several are 
projecting a doubling or tripling of their program by the year 
2000 and an increase beyond the year 2000 that's already been 
discussed.
    But this increase in prescribed fire, Madam Chairman, will 
not be easy, and a double standard impairs the ability of 
agencies to increase prescribed burning easily. Perhaps we will 
have some time later to examine this double standard in more 
detail.
    I would like to conclude with the last poster now, with six 
lessons learned that can be applied in dealing with the 
declining forest health issue in western forests.
    First, most forest ecosystems' plants and animals are 
adapted to recurring fire. The beautiful elk herds in the 
Selway Bitteroot wilderness in Idaho are dependent in large 
part in their diet on red stem ceanotheus. The germination of 
red stem ceanotheus seeds is triggered by fire that cracks the 
seed coat so that the seed can imbibe moisture and germinate. 
Mechanical treatment will not do anything for those beautiful 
elk herds in the Selway. They evolved with periodic fire.
    No. 2, it is not a question, as we know, of if a fire will 
occur. The question is only one of when and where. Fires will 
occur, and there will be smoke.
    No. 3, we can either pay now for a more balanced program of 
fire prevention, fire suppression, and prescribed fire use, or 
we can pay a dear price later, as we have been paying recently, 
for escalated losses of people, property, and their natural 
resources in uncontrollable wildfires.
    Four, and most importantly, silvicultural prescriptions, 
thinnings, harvest cutting, and prescribed fire must be 
integrated on a much larger scale to restore the health of 
fire-adapted ecosystems. This will require many strategies, 
including removal, to accomplish this objective. Many stand 
conditions, as we've heard today, are so highly flammable as a 
result of fire exclusion that prescribed burning without prior 
silvicultural treatment would be tantamount to igniting a 
conflagration. We need both--mechanical treatment and 
prescribed treatment.
    Five, fortunately, silvicultural cutting treatments 
designed to maintain healthy forests, often will pay the way 
for followup hazard reduction treatment by burning.
    And, finally, the buck needs to stop here. Risks for 
expanded prescribed fire projects must be shared among all 
stakeholders: agencies, the politicians, and the public.
    That concludes my verbal testimony, and I thank you very 
much, Madam Chairman, to present these issues to the Committee 
today.
    [The prepared statement of Mr. Mutch may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Mutch.
    The Chair now yields to Mr. Schaffer, from Colorado, to 
introduce our next witness.
    Mr. Schaffer. Thank you, Madam Chairman. I'm pleased to 
introduce Dr. Robert Pearson. Dr. Pearson is a scientist in the 
area of western region air quality, and has been for the past 
25 years. In fact, he served as an appointed member of the 
public advisory commission to the Grand Canyon Visibility 
Transport Commission for 4 years. I'd like to mention that Dr. 
Pearson received his Ph.D. in remote sensing of natural 
resources from Colorado State University in Fort Collins, 
Colorado, and Dr. Pearson, we look forward to your testimony.

   STATEMENT OF ROBERT L. PEARSON, RADIAN INTERNATIONAL LLC, 
                        DENVER, COLORADO

    Mr. Pearson. Thank you, Congressman, and I might add that I 
was doing my graduate work in the College of Forestry and 
Natural Resources at CSU in Fort Collins. So, while I'm not a 
forester, I do have a fair acquaintance with some of these 
issues.
    The Grand Canyon Visibility Transport Commission was set up 
by Congress as a result of the 1990 amendments to the Clear Air 
Act. The public advisory committee of that Commission was the 
group that I was appointed to by Colorado Governor Romer. We 
spent 4 years reviewing the science that had been collected on 
the subject of regional haze in the West, including new 
visibility data gathered specifically for the Grand Canyon 
Visibility Transport Commission.
    The public advisory committee then formulated policy 
recommendations for the Commission to consider. You may recall 
the Commission was made up of the Governors of eight western 
States, plus tribal leaders of several Indian tribes. 
Throughout the conduct of this scientific study for the 
Commission, every interest group was represented, including 
environmental groups, the Federal land managers of the Forest 
Service, the Bureau of Land Management, and the National Park 
Service.
    On June 10, 1996, the Commission published its findings in 
its report, entitled ``Recommendations for Improving Western 
Vistas.'' This report discusses in detail the scientific study 
that was done and the recommended control strategies for all of 
the categories of sources of air pollution located throughout 
the West. One area of much study and discussion by the 
Commission was the subject of today's hearing, the impact of 
regional haze on class I areas from the use of fire in forest 
management, commonly called prescribed burning.
    I'm here today to relate some of the information we learned 
as we struggled to craft a workable regional haze improvement 
plan for the West, as required by the Clean Air Act. Forest 
fires, either intentionally set or accidental, release 
quantities of fine particles made of carbon and other elements 
in the smoke. These fine particles cause several impacts on air 
quality.
    First, the concentration of fine particles in forest fire 
smoke may cause the PM2.5 National Ambient Air Quality 
Standard, recently adopted by EPA, to be violated near the 
fire. In addition, the fine soot particles in the smoke will 
affect visibility by both scattering and absorbing light. At 
times, smoke containing fine particles travels hundreds of 
miles and across several States.
    I can vividly remember seeing the effects in Denver of 
several California wildfires, and also the 1988 wildfires in 
Yellowstone. These effects were much reduced visibility and a 
smoke smell in the air.
    During the Commission's study of western regional 
visibility, we also saw photographs taken at Hopi Point at the 
Grand Canyon when a small wildfire on the South Rim of the 
canyon was brought under control and extinguished. Even such a 
small fire, which lasted only a few hours, filled the canyon 
with smoke. The point is that even a small fire in or near a 
class I area can cause dramatic effects on visibility and the 
concentration of fine particles in the air, similar to the 
effects seen at long distances from large fires.
    The Federal land managers, the Forest Service, and the 
National Park Service, in particular, told the Commission that 
they intend to dramatically increase the number and extent of 
prescribed fires over the next several years to, quote, ``catch 
up from many decades of fire suppression,'' close quote, by 
reducing the amount of fuel available to burned by wildfires in 
the Nation's forests.
    The Commission analyzed the effects of this increased use 
of fire as a forest management tool and concluded the effects 
on regional visibility could easily wipe out the gains made by 
all other sources categories combined, and that would include 
point sources as well as mobile sources. They also include 
power plants, copper smelters, cars, trucks, and area sources 
such as fugitive dust.
    Note in the Commission's report, they combined all fires, 
both man-caused and wildfires, into a natural category for our 
analysis, and that's shown by slide 3, attached to my written 
testimony. Such natural causes contribute almost half of the 
visibility impairment in the West.
    To some extent, then, the Commission report is biased by 
considering smoke from intentional man-caused fires as, quote 
``natural,'' close quote. This also, in effect, exempts the 
smoke from prescribed burns from being considered against your 
goal in the Clean Air Act of remedying man-caused sources of 
visibility impairment.
    The point is that all of our hard-won incremental 
improvements in regional visibility across the West could be 
overwhelmed by the increased use of fire as a land management 
tool by Federal land manager agencies, even though their 
contribution is considered, quote, ``natural.''
    One other point needs to be made in this regard. The EPA 
has recently proposed a set of regulations to protect and 
improve regional visibility in the U.S. One provision of 
current law, as well as in the proposed rules, allows the 
Federal land manager of a class I area to identify a source or 
some group of sources, some distance away, which could be 
impacting visibility in the class I area--and Madam Chairman, 
you were getting at this point a little while ago.
    The State in which the source is located would then be 
required to evaluate the allegedly offending sources for the 
retrofit of air pollution control technology. In effect, this 
gives the Federal land manager land use control over lands 
outside of the wilderness area, despite the fact that 
wilderness legislation passed by Congress specifically 
prohibits the establishment of buffer zones around wilderness 
areas.
    The Federal land managers have the authority to trigger 
clean-up activities on all other sources, while at the same 
time increasing their own air pollution activities through 
increased prescribed burns. This apparent ``Do as I say, not as 
I do'' philosophy of the Federal land managers suggests a 
double standard for allowing Federal agencies to emit fire 
smoke at will, but at the same time requiring others to spend 
large sums of money to reduce their emissions even a small 
amount.
    While this may sound far-fetched, it has been going on for 
some time in northwestern Colorado. The Forest Service manager 
of the Mount Zirkel Wilderness Area accused the Hayden power 
plant of polluting wilderness areas some 30 miles away. The 
State of Colorado----
    Mrs. Chenoweth. Mr. Pearson?
    Mr. Pearson. Yes.
    Mrs. Chenoweth. I wonder if I could interrupt you.
    Mr. Pearson. Sure.
    Mrs. Chenoweth. We have to run for a vote--and this is very 
interesting testimony. I am very sorry. We only have about 3 
minutes left to scoot over there, but we look forward to your 
continuing when we get back.
    Mr. Pearson. OK.
    Mrs. Chenoweth. There's just one vote. It's on a motion to 
rise, meaning they want to go home.
    [Laughter.]
    Mrs. Chenoweth. But we're obligated to make the vote, and 
so we'll run right over and be right back.
    Mr. Pearson. I understand; thank you.
    [Recess.]
    Mrs. Chenoweth. The hearing will come to order--my golly, 
we're going to get down to business here. We'll resume with the 
testimony of Dr. Pearson.
    Mr. Pearson. Thank you, Madam Chairman. Let me just 
conclude with a couple of final comments.
    The point I was making when you had to leave for the floor 
vote was that Federal land managers can indeed influence land 
use policy outside of their wilderness areas, and I was trying 
to make the point in concert with the earlier maps that you 
showed with the red circles around the class I areas, that 
indeed that is the case right now in Colorado.
    In the Yampa Valley in northwestern Colorado, there is the 
Mount Zirkel Wilderness Area, and the Forest Service which 
manages that area has accused the Hayden power plant at Hayden 
of polluting the wilderness area some 30 miles away. The State 
of Colorado Health Department, along with the Forest Service 
and the Colorado utilities conducted a $3 million scientific 
study to determine the sources of visibility impairment in the 
wilderness. The recently released results of that study show 
that the Hayden Power Plant was only a minor contributor to 
visibility impairment in the wilderness.
    Despite this evidence, however, the source owners have 
committed to spending over $100 million to reduce the emissions 
from that plant. All the while, the Forest Service can go ahead 
and conduct prescribed burns or allow wildfires to burn at will 
to reduce forest fuel levels in and near the wilderness area. 
The other Federal land managers can do the same in other areas.
    There's also an irony here that we need to keep in mind, 
and that is that there's a great concern now about global 
warming, and fires release carbon as carbon dioxide. It is to 
be noted that if you burn the forest, you're putting the carbon 
that is locked up in those trees back into the atmosphere, thus 
possibly exacerbating the global warming issue. And also, by 
removing some of this material from the forest, you're reducing 
the forest's ability to lock up carbon that they would be 
putting into wood over the next several years.
    While I'm extremely concerned that prescribed burns will 
hamper and even possibly prevent our attainment of the goal 
that you set for us in remedying man-caused effects of 
visibility impairment in the West, we recognize that forest 
fires can and will occur. Therefore, the Federal land managers 
must take this into account and work out other options for 
reducing timber in the forest, while still helping us achieve 
the class I visibility requirements set out in the Clean Air 
Act.
    And with that I will say thank you, and answer any 
questions you may have.
    [The prepared statement of Mr. Pearson may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Dr. Pearson, and the Chair 
recognizes Mr. Schaffer for questions.
    Mr. Schaffer. Thank you.
    Dr. Pearson, my first question deals with the second issue 
that you touch on, which is the ability of land managers of 
various sorts, with respect to the Forest Service, in 
particular, to have some impact on the operations of various 
human activities in other jurisdictions. You mentioned the 
Mount Zirkel incident, which I'm familiar with. To what extent 
does occur throughout the rest of the country?
    Mr. Pearson. Well, I'm most familiar with Mount Zirkel, but 
I'm sure that it has happened elsewhere. Let me say that the 
Federal land managers' authority in this regard is written into 
the Clean Air Act as an advisor capacity, but the most recently 
proposed EPA rules on regional haze make it an out-and-out 
right, if you will, of the Federal land managers. So, again, 
I'm most familiar with Mount Zirkel, but I'm sure it can and 
has happened elsewhere, and will probably happen more with 
these new authorities.
    Mr. Schaffer. I want to go back to the questions that I 
asked of Carol Browner at the EPA with respect to the Grand 
Canyon Visibility Transport Commission. She said, when I asked, 
that the findings of that report were somehow built into the 
new air quality standards, and with the contemplation of a 400 
percent increase in prescribed burning, as one who served on 
that Commission, I'd like to get your perspective on whether 
the findings of the Commission were acknowledged by the EPA.
    Mr. Pearson. Well, they acknowledge that such a study took 
place, but they do not in any way, in any major way, anyway, 
incorporate the findings of the Commission into their proposed 
regional haze rules. And, in fact, I testified in Denver a week 
ago before EPA on this very rule and made that comment, that 
they ignored the Commission's findings across the board when 
they drafted these rules.
    So, I don't know how Carol Browner can say that the 
Commission's findings are incorporated in the rule, because 
they simply are not.
    Mr. Schaffer. Do you think it's appropriate that those 
secondary standards for visibility should be as stringent as 
the primary standards that are intended to protect human 
health?
    Mr. Pearson. Oh, not at all. And, in fact, when the Clean 
Air Act was first passed by Congress many years ago, the 
primary standards of the health standards were given much more 
significance because they are based on protecting human health, 
whereas secondary standards, those protecting human welfare, 
must have a lot more flexibility and ability of parties to meet 
them in an economical and feasible way. So, no, they're not 
intended to be at all equivalent, and I agree with that.
    Mr. Schaffer. I'd like you to discuss, if you would, 
Secretary Babbitt's assessment that the costs of prescribed 
fire versus the costs of mechanical removal--let me find this. 
He said that prescribed fire is by far the least expensive 
method of treating hazardous fuels. He said that the average 
national costs run about $20 to $30 per acre for fire, while 
mechanical fuel reduction or multiple treatments can cost $500 
to $1,500 per acre.
    Can you comment on that from your scientific perspective 
and background?
    Mr. Pearson. Well, I don't really have any background in 
the cost of burning a forest versus going in and doing 
mechanical removal. Let me just say that if one chooses to burn 
the forest and pollutes the environment as a result, then 
someone else, presumably private industry, has to then reduce 
their emissions at a huge cost to make up for this added smoke 
from the forest. So I think one needs to look at those costs as 
well.
    Mr. Schaffer. And one last question, just from an air 
quality standpoint. Are the EPA's new standards and proposed 
rules reasonable?
    Mr. Pearson. It depends on who you ask. I think in some 
regards they are and in other regards they are not, in my 
personal opinion, and----
    Mr. Schaffer. That's what I'm after.
    Mr. Pearson. [continuing] we could get into a discussion as 
to which is which.
    Mr. Schaffer. From your perspective.
    Mr. Pearson. Well, in terms of the PM2.5 standards, I think 
they're probably needed to protect human health but not at the 
levels set by EPA, they are too stringent. In terms of regional 
visibility, that is a goal that Congress set to improve 
regional haze, primarily in the West. And while that is a nice 
thing to do and we all strive to do that, and we're working 
very hard in that regard, let's do it in balance with other 
objectives--economic objectives, removing fuel from the forest, 
and so forth.
    So we need a balanced program, and that is indeed why the 
Commission, the Grand Canyon Visibility Transport Commission, 
was set up by the Congress to look at these various aspects and 
weigh them into a balanced program, which we did. EPA now 
chooses to ignore our recommendations.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. That's very 
interesting.
    And I'd like to ask Mr. Dennison, do you agree with 
Secretary Babbitt's assessment of the cost of prescribed fire 
versus the cost of mechanical treatment in the forest?
    Mr. Dennison. Thank you for asking that. I do have some 
background in that, having done some of that sort of removal 
after I retired. I don't know where those figures might have 
come from. The $20 to $30 per acre had to have been on a 
national average, and I think he mentioned a national average. 
That would include, then, a lot of acres where you didn't 
really have to do very much; you torched it and you let it 
burn, across grasslands and areas like Florida, possibly, but 
certainly not in California. So, I don't know where they could 
do that in California for that.
    On the other end they noted, I believe, that it was $500 to 
$1,500 an acre for mechanical removal. I know that in 
California, under service contracts that the Forest Service 
have had, they've had as high as $275 per acre. Currently, 
those service contracts--and by service contracts I'm talking 
about the removing of the biomass without any other material, 
just trying to get that fire load down--those service 
contracts, the last I checked, were around $100 to $125 per 
acre, so, not near that figure.
    In addition, though, Madam Chair, I think it's important to 
note that if we have contracts that are strictly contracts to 
do the end product job, what we call merchantable product 
sales, where you remove the small trees and you remove the 
biomass together, those are net income to the Federal 
Government. And so that gives them some extra money, then, to 
use on prescribed burns if they wish to later on. So I would 
question those figures, at least based on where I'm from.
    Mrs. Chenoweth. Thank you, Mr. Dennison. I just introduced 
a bill to that effect, the Stewardship Contract----
    Mr. Dennison. That is very much needed. I'm aware of that. 
We tried it once about 20 years ago, and we couldn't get enough 
cooperation from anybody, but I look forward to that being in 
effect.
    Mrs. Chenoweth. Good, good.
    Mr. Peterson, I want to ask you, could you--what do you see 
as the biggest threat to the continued use of prescribed fire 
down there in Florida, or any place?
    Mr. Earl Peterson. Madam Chairman, we have a unique 
situation in Florida, as I mentioned. I think the biggest 
threat would be, of course, the concern for public health and 
the public perception of people who are not familiar with the 
history of prescribed fire, who might have moved into the area 
from outside of the area; so, I think those would be the 
biggest threats.
    Prescribed fire, or controlled fire, as it used to be 
called, has a long history in Florida, generally accepted as a 
part of the landscape, as a part of the strategies there. But 
these two issues will impact its future.
    Mrs. Chenoweth. I see. Could you tell me why your office 
and the State in general felt it was necessary to develop and 
pass the Prescribed Fire Act in Florida?
    Mr. Earl Peterson. Yes. It was thought necessary because, 
No. 1, prescribed fire is very central, as I said earlier, to 
Florida--both to the ecology, the ecosystem. Many of our 
species are not only fire tolerant, they're fire dependent.
    And then, of course, with the massive amount of people 
coming in who are not familiar with all of that, it was just 
thought it needed to be done because prescribed fire needs to 
go forward as a part of the management tool in Florida, and we 
needed to protect its proper use from civil liability, if done 
properly.
    Mrs. Chenoweth. Thank you.
    Mr. Dennison, you noted there are data which show the 
amounts of fuel which should be removed prior to the use of 
prescribed fire. Could you give us an example of that?
    Mr. Dennison. Yes, as a matter of fact, one of the people 
who provided data--and it was also in Mr. Babbitt's testimony, 
his written testimony, at least--researcher Wallace Covington. 
He referred to that particular person, who does studies at 
North Arizona University, conducting studies there in order to 
determine means of restoring ponderosa pine forests through 
prescriptive fires. He reported in a recent study that in order 
to put a forest stand of trees back into a normality where they 
could use prescriptive fires, that he removed 5,500 board feet 
per acre, and as much as 5,800 tons per acre of unmerchantable 
slash and duff.
    That unmerchantable slash and duff is something that in 
California we utilize for chips and co-generation in developing 
energy. So, those are the types of materials that we think 
ought to be removed. Now those are in certain stands. They 
wouldn't be the same volume everywhere, but that was an 
example.
    In addition, in northern California, there's Wheelabrator 
Shasta Energy Company, who does have co-generation plants who 
do utilize those unmerchantable materials and do convert it to 
electricity. Their forester, Steve Jolly, has done studies and 
finds that they remove about 30 to 35 tons per acre prior to 
prescriptive burning. Putting that into something maybe we can 
grasp a little bit better, the large vans that the chips are 
in, that's about--oh, probably one to one-and-a-half truckloads 
per acre of material, a lot of material that has to be removed.
    Mrs. Chenoweth. How big is that co-generation facility down 
there in Shasta Power?
    Mr. Dennison. I think it's a 5-megawatt, and we have five 
of them in California and are ready to utilize some of those 
materials if we have them available to us. In addition, we have 
ethanol plants that now are looking to come into our area, as 
well, that can utilize some of this same material that can be 
removed prior to prescriptive burning.
    Mrs. Chenoweth. The pine needles and that type of thing?
    Mr. Dennison. Well, that gets in there inadvertently. They 
can take anything. Of course, what they do is they chip the 
material in the woods, blow it into a van, haul it in, then, 
into the facility, and then burn it at that plant.
    Mrs. Chenoweth. I wanted to ask Mr. Mutch, can the agencies 
significantly expand prescribed fire programs and still 
safeguard air quality, in your opinion?
    Mr. Mutch. It seems like a conflicting dilemma, the choice 
of the words you used, but my answer to that question based on 
reality is, yes, we can. And I base that on quite a few 
different examples of research that are going on around the 
West today.
    For example, the Westar Group, which is a combination of 14 
directors of the western States' air quality bureaus, are on 
record as saying that a large increase in prescribed fire can 
mitigate against future wildfire smoke. The same thing applies 
as my point three on the board here: pay now in a more balanced 
program, or pay a dear price later in wildfire smoke emissions.
    For example, the wildfire called the Silver Fire in 
southwest Oregon in 1987, burned over a period of 58 days. 
Research has shown that it released 53 million pounds of 
respirable particulate--in other words, particulate matter less 
than 10 microns--into the atmosphere over a 58-day period.
    The wildfire smoke, in my view, is the bad smoke. That 
doesn't mean that prescribed fire smoke is good smoke, but it 
is better smoke because we can time the period in which it is 
emitted; we can burn under certain wind directions and speeds 
to avoid smoke-sensitive areas. We operate under smoke 
management plans in our burning programs, and all of this 
prescribed burning, as you know, is done in concert with smoke 
management plans in the States to apply best-available control 
measures to minimize the amount of smoke and emissions into the 
air from prescribed burning.
    Another study I will cite, Madam Chairman, is some work 
that's ongoing in Oregon between the Forest Service, the Oregon 
Department of Forestry, and DEQ in Oregon, that's showing, with 
data, that probably a great increase in prescribed fire over a 
period of years will ultimately reduce the total emissions from 
wildfires and prescribed fires in the future.
    When you look at what's happening in the Blue Mountains of 
eastern Oregon and the Boise National Forest, we're seeing one 
wildland smoke episode after another from wildfires covering 
multi-State areas under conditions that are totally random and 
beyond our control.
    Let me just conclude by saying I might take a different 
stance than what we heard from the EPA today under this premise 
that the wildfire smoke is the bad smoke. We might say that 
wildfire smoke should not fall under a natural events 
exemption, which we heard about. The wildfire smoke is not 
stringently regulated like prescribed fire smoke.
    I would say that Federal agencies should be penalized for 
the wildfire smoke they put into the atmosphere, because that's 
the bad smoke, and there should be some leniency addressed to 
the prescribed fire question so that we can ultimately reduce 
total emissions by a more rounded program of prescribed fire.
    Mrs. Chenoweth. That's very interesting. Is there a logical 
way that one can tell whether a fire is caused by man or by an 
act of nature in time to impact other air emittents? I mean, 
sometimes, doesn't it take days and weeks to determine how a 
fire started, whether it was caused by man?
    Mr. Mutch. Take days and weeks in terms of fire cause?
    Mrs. Chenoweth. Yes.
    Mr. Mutch. We know pretty well from fire reporting where 
the fire starts and what's gone on in that area in terms of 
human activity and lightning storms. We know very carefully--
you know, 95 percent or better, probably--whether fire is 
caused by lightning or by people.
    Mrs. Chenoweth. Very interesting, gentlemen. Your testimony 
has been very instructive, and I thank you so much for your 
patience today. We are putting together a very, very important 
and interesting record, and I thank you for your personal 
contribution, the contributions of your associations and 
companies that they have made by having you be willing to come 
to Washington and participate in this hearing.
    Mr. Schaffer, do you have anything you would like to add?
    Mr. Schaffer. Yes. You know, it's interesting. I don't 
represent Idaho, but I had a chance to fly over the Boise 
National Forest with the Forest Health Subcommittee, and it was 
remarkable how often some of the wildfires there stopped in 
this remarkable straight line. And it was not as a result of 
previous burning as much as it was a result of sound forest 
management and thinning, and so on.
    So this concept you mention of good smoke versus bad 
smoke--you know, it's abundantly clear to me that in many areas 
of the country it's possible to prevent forest fires with no 
smoke by just applying the sound practices that forestry has 
taught us, and realizing that the taxpayers throughout the 
country have billions of dollars worth of resources that can be 
utilized and harvested in a responsible way to maintain the 
integrity of the environment and improve critical habitats and 
prevent erosion in many cases, as we saw in the Boise National 
Forest, and so on.
    I understand the necessity of controlled burns in some 
cases, but this notion that we hear today from some that 
controlled burning is always preferable to sound forest 
practices is a silly notion, I think, and, unfortunately, one 
that has seeped into the Department of the Interior and 
Department of Agriculture and is being excused in many ways by 
the EPA in a way to make the administration look more 
responsible on paper than they actually are in reality.
    That's my comment. Thank you, Madam Chairman.
    Mr. Mutch. May I respond to that, briefly?
    Mrs. Chenoweth. Yes.
    Mr. Mutch. I would certainly say that you're exactly right, 
and I began my testimony by saying that the combination of 
mechanical, pre-commercial thinning, harvests, and all of those 
other tools must be done in concert with prescribed fire when 
necessary.
    And I also would have to add to your comments that many of 
the vistas and landscapes that the public of this fine country 
enjoy are based on an evolution of plants and animals with 
periodic fire, and many of the functions of ecosystems are very 
carefully associated with the periodic occurrence of fire in 
these ecosystems, whether it's the germination of plants or the 
control of brown spot disease in longleaf pine, fire, for 
evolutionary periods of time, has interacted with these plants 
and animals.
    So, you're exactly right. It's a program that's needed of 
balance and thought and judgment and wisdom. And we need 
mechanical thinning; we need harvests; we need the use of that 
material for economic benefit to the people of this country, at 
the same time that we afford those people some of the vistas 
that they enjoy in our wildlands that are there partly because 
of fire, not because we kept fire out.
    Mrs. Chenoweth. Thank you very much and--yes, Mr. Peterson?
    Mr. Earl Peterson. Madam Chairman, I would be remiss if I 
didn't say that I hope as we proceed through this process, 
which is very important because of all of the issues we heard 
here today, that we're not talking about just Federal land 
management issues. There's an enormous private sector out there 
who has some of the same concerns, some of the same needs.
    There are other public land management agencies that are 
State and local who have these issues, and then everything from 
the fuels to the history to the strategies are different, so a 
one-size-fits-all, or a Federal blanket, shall we say, should 
not be one that we take for granted here. There are a lot of 
variables in this mix.
    Mrs. Chenoweth. I agree with you, and I thank you for that 
contribution.
    I also want to say that the visionaries in this country, 
people like the individuals who built co-generation facilities 
when PURPA first came into being--the vision of being able to 
use the fuel load is a very good one and especially in this day 
when we're facing deregulation and throwing the production of 
energy out onto the free mar-

ket system, which I like, so long as we have an even start. I 
think those visionaries have got to be commended.
    And it's my personal concern to see to it that those co-
generation facilities always have the fuel available to them, 
and I just wish we had more of those facilities, because they 
can produce power from a renewable resource that helps clean up 
our forests and gives us the ability to have the right kind of 
prescribed fire conditions. So my hat is off to them.
    I appreciate all of your testimony. As I said, it's very 
instructive. I have more questions for you, but I have been 
instructed that--your bacon is saved at this minute, because 
not only do we have a vote, but this room needs to be used by 
other people.
    And so, we will be submitting our additional questions in 
writing. The record will remain open for 3 weeks, and if there 
are no other questions or comments this hearing is adjourned.
    Mr. Mutch. Thank you for inviting me.
    [Whereupon, at 3:38 p.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
     Statement of Hon. Dan Glickman, Secretary, U.S. Department of 
                              Agriculture

    Mr. Chairman and Members of the Committee:
    I am pleased to appear today before this Committee to 
discuss the Administration's fire management policy with 
Secretary Babbitt and Administrator Browner. I want to 
highlight three issues in my testimony today and submit with 
Secretary Babbitt and Administrator Browner some further 
technical background for the record. First, I want to talk 
about how our resource conditions have changed because of past 
fire suppression policies. Then I want to discuss how we have 
changed our policies to address emerging problems, including 
the Forest Service's Fire 21 Agenda. And finally, I want to 
highlight some accomplishments of the Department of Agriculture 
in meeting changing demands.
    The Federal Government has a long-standing tradition and 
record of fire management. 100 years ago, the creation of our 
National Forests was inspired by the need to protect forest 
resources from slash and burn logging that was decimating 
productive lands and threatening rural communities in the upper 
Midwest and far west. In 1911, after the Forest Service had 
begun serious fire suppression on Federal lands, the Weeks Act 
directed the Secretary of Agriculture to work cooperatively 
with the States to fight fires across ownerships. Today the 
Forest Service, in partnership with several Federal agencies, 
operates the most advanced, innovative, and effective fire 
fighting organization in the world.

Changing resource conditions

    For 50 years we have had the technology to fight fires with 
incredible effectiveness. Our national policy, championed by 
Smokey Bear in one of our most successful public education 
programs, was to quickly and effectively put out fires. It is 
ironic, but we are now paying the price for our success.
    Fire is a natural part of any terrestrial ecosystem in the 
country. In some areas such as southern California, wildfire 
came through on an average of every 10 years. In the ponderosa 
pine forests of the intermountain west, fires burned in 30 year 
cycles. In the east and the Pacific Northwest, some forests 
burned once in 100 years. In every case, fire was a regular 
part of the ecological process. While we have known that fire 
was a natural occurrence in wildlands, we recently began to 
understand that it is necessary.
    Today, the legacy of seven decades of fire suppression is a 
changed landscape. Forests where young seedlings were regularly 
thinned out by periodic fire are now thick with small diameter 
trees that outstrip the sites' moisture supplies and soil 
nutrients. These dog-hair thickets are especially subject to 
drought, disease. and ultimately intense wildfires that wipe 
out nearly the entire stand. Other forests where fire resistant 
trees used to be the dominant species are not crowded and 
sometimes replaced by trees not native to the area. The result 
is changed habitat undesirable species mixes, and increased 
susceptibility to fire. Even rangelands show the evidence of 
fire suppression with exotic plants, over abundance of 
sagebrush, and the encroachment of shrubs and unpalatable 
plants. In all cases there is simply an incredible accumulation 
of fuel in the form of needles and organic material on the 
forest floor, woody shrubs, overstocked stands of small 
diameter trees, and deadfall trees lying on the ground that 
exceed the levels necessary for soil formation native habitat, 
and forage.
    These conditions have led to a serious change in wildland 
fire activity. Since the 1920's wildfire has typically claimed 
400,000 to 500,000 acres of national forests each year. From 
1920 to 1987--a period of nearly 70 years--fire never burned 
more than one million acres per year. However, in the past 10 
years, we have had four years during which more than one 
million acres have burned.
    These unnatural, fire-prone, forest conditions exist on 39 
million acres (20 percent) of our national forest system. This 
fact, combined with the tragic loss of 34 skilled firefighters 
in 1994, is why Secretary Babbitt and I have taken such an 
aggressive role in changing fire policy in the Administration. 
Contrary to some claims of critics, our changed policy is not, 
I repeat, not to simply put a match to the forests. Our policy 
changes involve mechanical forest treatment, budget structure 
changes, new planning priorities, personnel training, new 
research, carefully planned prescribed burns that continue to 
include air quality considerations, and dozens of other 
initiatives to meet this challenge.
    To meet the changing needs for the 21st Century, the Forest 
Service has integrated the concepts of the Federal Fire Policy 
Review into a program we call Fire 21, which realigns and 
emphasizes our priorities. The four commitments of the Fire 21 
Agenda are: 1) Putting firefighter safety and public safety as 
the highest goal; 2) Supporting the role of fire in restoring 
and sustaining healthy ecosystems; 3) Supporting the 
integration of fire management into land management planning; 
and 4) Improving fire and aviation accountability within the 
Forest Service.
    One of the most important steps necessary to returning fire 
to the landscape after 70 years of fire suppression includes 
removing small diameter trees which can be tightly packed, 
susceptible to fire, and serve as fuel ladders that allow low 
intensity ground fires to burn up into the treetops. Old growth 
trees that have survived dozens of fires over several centuries 
are threatened by these intensely hot crown fires. At lease 
half of the 39 million acres that are potentially subject to 
damaging wildfire need some kind of mechanical fuels treatment 
before fire is reintroduced. The Senate Interior Appropriations 
Report for fiscal year 1998 includes $50 million for this type 
of fuels management, an increase from $29 million in 1997.
    Another important step is providing the resources to 
implement prescribed burns in the very narrow windows of time 
when weather, moisture levels, treatment objectives, air 
quality, and other factors converge to allow a carefully 
controlled burn across a discreet area. In 1996, the Forest 
Service treated 532,000 acres. In 1997, we have burned nearly 
one million acres. By 2005 we hope to treat 3.5 million acres 
annually, so that by 2015 we will have addressed nearly all of 
the 39 million acres that need fuel management and fire 
reintroduction. The fiscal year 1998 Senate Interior 
Appropriations Report moves hazardous fuels management funding 
out of the fire preparedness function into a fire management 
operations account to ensure that it is available to 
supervisors who are managing fire through prescribed burns and 
fuels treatment. This will increase our ability to restore 
ecosystems with fire management techniques.
    There is another changing condition which has nothing to do 
with out past fire management policies, but has a very 
significant impact on future fire policies--the growing 
wildland/urban interface. As more people recognize the beauty 
and value of public land, more people are locating homes in and 
around it. Many of these people choose to live in wooded 
environments with trees that grow right beside their houses. 
This has become a very significant challenge for the Forest 
Service; how to balance the risk of suppressing wildlife with 
the risk of reintroducing and managing fire. We do not have all 
the answers to these questions, but we are working very closely 
with our partners, especially the state foresters, to develop 
appropriate balance between federal responsibilities and 
private responsibilities for total fire management across mixed 
ownerships. We have developed an education program with local 
firefighters using radio announcements and other venues to 
teach homeowners the importance of managing fuels such as 
shrubs and trees next to their homes.
    Through Fire 21, the Forest Service is changing the 
fundamental skills and training of federal fire fighters. 
Instead of focusing exclusively on fire suppression, the new 
fire management workforce will have training that allows them 
to serve as a resource to forest supervisors who need to 
reintroduce fire to the ecosystem. Comprehensive fire 
management will include fuels evaluations, collaboration across 
ownerships, land management planning, prescribed fire 
implementation, and fire and vegetation monitoring. Our people 
will be trained and equipped to fight fires as effectively as 
ever, but their skills will reflect the changing demands of a 
comprehensive fire management program.
    We are also making progress in addressing one of the most 
controversial aspects of an aggressive program of prescribed 
burning--smoke management. Unlike some, we do not see air 
quality standards as an obstacle to the use of prescribed fire. 
Rather, these regulations recognize the importance of 
protecting air quality in carrying out management activities. 
We are working with the Environmental Protection Agency and 
State air quality regulatory agencies to develop practical 
policies to mitigate and manage visibility and health 
impairment from smoke emissions. We are encouraged that other 
governmental entities, such as the Grand Canyon Visibility 
Transport Commission, recognize that air quality is affected by 
smoke not only from prescribed fires but also from wildfires 
and that a strong prescribed fire program can have much less 
impact on air quality in the long run.
    Through Fire 21, the Forest Service is also changing the 
fundamental skills and training of federal firefighters. 
Instead of focusing exclusively on fire suppression, the new 
fire management workforce will have training that allows them 
to serve as a resource to forest supervisors who need to 
reintroduce fire to the ecosystem. A total fire management 
program will include fuel evaluation and treatment, 
collaboration across ownerships, land management planning, 
prescribed fire implementation, and fire and vegetation 
monitoring. Our people will be trained and equipped to fight 
fires as effectively as ever but their skills will reflect the 
changing demands of a comprehensive fire management program.
Accomplishments

    Finally, let me explain a few of our accomplishments in the 
overall fire management area.
    The outstanding track record of fire suppression will 
continue. The federal fire fighting agencies have consistently 
suppressed 98 percent of all wildfires during initial attack. 
The remaining 2 percent of the fires account for most of the 
loss of life and total acreage burned. However, even as we 
shift to broaden our management objective, we intend to 
maintain our capability to stop most fires before they threaten 
people or property.
    Our cooperation with the states will also continue. Through 
the USDA cooperative fire program, we have loaned state and 
local governments more than $800 million dollars in surplus 
federal property for use in fire suppression during our long-
standing partnership. With the support of Congress, USDA 
provides approximately $17 million in cost-share grants to 
strengthen the state programs and an additional $2 million, 
through the states, to help train and equip volunteer 
firefighters in rural towns across the United States.
    The Forest Service is a world leader in fire behavior and 
fire management research. We have extensive expertise and 
research underway on the effects of fire on vegetation and 
wildlife, smoke management, impacts of harvesting on fire 
risks, and opportunities to create markets for small diameter 
trees--especially in California and the Southwest. While there 
is almost always a market for the mature large diameter trees, 
we need to make sure there is a capacity, and hopefully market 
demand, to facilitate the removal of smaller diameter trees. We 
cannot afford to sell off traditional forest products and leave 
behind trees that have traditionally been ``non-merchantable'' 
because this will not address our fire management needs and 
will leave the forest in worse condition.
    Finally, we have working and will continue to work with the 
Environmental Protection Agency to address the complex 
questions of airshed management in fire dependent ecosystems. 
We are on a work group with the Department of Interior and 
state land managers to develop recommendations for an EPA 
policy on wildland fire emissions. The Forest Service is 
committed to incorporating public health and environmental 
quality considerations into its fire management plans. Air 
quality criteria will continue to be incorporated in fire 
prescription and smoke management plans. USDA's partnership 
with EPA is a strong one--across many program areas--and we 
look forward to its further growth.

Summary

    I am very excited about the new directions in fire 
management. We have recognize the trend of ecological changes 
and dramatically changed direction. Our changes are keeping 
firefighters safer, restoring the environment, enhancing 
wildlife habitat, protecting streams and forests from intense 
and damaging fires, and managing air quality. The Forest 
Service and its federal partners continue to be leaders in 
developing a total fire management strategy that protects both 
people and the environment.

[GRAPHIC] [TIFF OMITTED] T4511.006

[GRAPHIC] [TIFF OMITTED] T4511.007

[GRAPHIC] [TIFF OMITTED] T4511.008

[GRAPHIC] [TIFF OMITTED] T4511.009

[GRAPHIC] [TIFF OMITTED] T4511.010

[GRAPHIC] [TIFF OMITTED] T4511.011

[GRAPHIC] [TIFF OMITTED] T4511.012

[GRAPHIC] [TIFF OMITTED] T4511.013

[GRAPHIC] [TIFF OMITTED] T4511.014

[GRAPHIC] [TIFF OMITTED] T4511.015

[GRAPHIC] [TIFF OMITTED] T4511.016

[GRAPHIC] [TIFF OMITTED] T4511.017

[GRAPHIC] [TIFF OMITTED] T4511.018

[GRAPHIC] [TIFF OMITTED] T4511.019

[GRAPHIC] [TIFF OMITTED] T4511.020

[GRAPHIC] [TIFF OMITTED] T4511.021

[GRAPHIC] [TIFF OMITTED] T4511.022

[GRAPHIC] [TIFF OMITTED] T4511.023

[GRAPHIC] [TIFF OMITTED] T4511.024

[GRAPHIC] [TIFF OMITTED] T4511.025

[GRAPHIC] [TIFF OMITTED] T4511.026

[GRAPHIC] [TIFF OMITTED] T4511.027

[GRAPHIC] [TIFF OMITTED] T4511.028

[GRAPHIC] [TIFF OMITTED] T4511.029

[GRAPHIC] [TIFF OMITTED] T4511.030

[GRAPHIC] [TIFF OMITTED] T4511.031

[GRAPHIC] [TIFF OMITTED] T4511.032

[GRAPHIC] [TIFF OMITTED] T4511.033

[GRAPHIC] [TIFF OMITTED] T4511.034

[GRAPHIC] [TIFF OMITTED] T4511.035

[GRAPHIC] [TIFF OMITTED] T4511.036

[GRAPHIC] [TIFF OMITTED] T4511.037

[GRAPHIC] [TIFF OMITTED] T4511.038

[GRAPHIC] [TIFF OMITTED] T4511.039

[GRAPHIC] [TIFF OMITTED] T4511.040

[GRAPHIC] [TIFF OMITTED] T4511.041

[GRAPHIC] [TIFF OMITTED] T4511.042

[GRAPHIC] [TIFF OMITTED] T4511.043

[GRAPHIC] [TIFF OMITTED] T4511.044

[GRAPHIC] [TIFF OMITTED] T4511.045

[GRAPHIC] [TIFF OMITTED] T4511.046

[GRAPHIC] [TIFF OMITTED] T4511.047

[GRAPHIC] [TIFF OMITTED] T4511.048

[GRAPHIC] [TIFF OMITTED] T4511.049

[GRAPHIC] [TIFF OMITTED] T4511.050

[GRAPHIC] [TIFF OMITTED] T4511.051

[GRAPHIC] [TIFF OMITTED] T4511.052

[GRAPHIC] [TIFF OMITTED] T4511.053

[GRAPHIC] [TIFF OMITTED] T4511.054

[GRAPHIC] [TIFF OMITTED] T4511.055

[GRAPHIC] [TIFF OMITTED] T4511.056

[GRAPHIC] [TIFF OMITTED] T4511.057

[GRAPHIC] [TIFF OMITTED] T4511.058

[GRAPHIC] [TIFF OMITTED] T4511.059

[GRAPHIC] [TIFF OMITTED] T4511.060

[GRAPHIC] [TIFF OMITTED] T4511.061

[GRAPHIC] [TIFF OMITTED] T4511.062

[GRAPHIC] [TIFF OMITTED] T4511.063

[GRAPHIC] [TIFF OMITTED] T4511.064

[GRAPHIC] [TIFF OMITTED] T4511.065

[GRAPHIC] [TIFF OMITTED] T4511.066

[GRAPHIC] [TIFF OMITTED] T4511.067

[GRAPHIC] [TIFF OMITTED] T4511.068

[GRAPHIC] [TIFF OMITTED] T4511.069

[GRAPHIC] [TIFF OMITTED] T4511.070

[GRAPHIC] [TIFF OMITTED] T4511.071

[GRAPHIC] [TIFF OMITTED] T4511.072

[GRAPHIC] [TIFF OMITTED] T4511.073

[GRAPHIC] [TIFF OMITTED] T4511.074

[GRAPHIC] [TIFF OMITTED] T4511.075

[GRAPHIC] [TIFF OMITTED] T4511.076

[GRAPHIC] [TIFF OMITTED] T4511.077

[GRAPHIC] [TIFF OMITTED] T4511.078

[GRAPHIC] [TIFF OMITTED] T4511.079

[GRAPHIC] [TIFF OMITTED] T4511.080

[GRAPHIC] [TIFF OMITTED] T4511.081

[GRAPHIC] [TIFF OMITTED] T4511.082

[GRAPHIC] [TIFF OMITTED] T4511.083

[GRAPHIC] [TIFF OMITTED] T4511.084


</pre></body></html>
